<html>
<title> - SILVERTIP PIPELINE OIL SPILL IN YELLOWSTONE COUNTY, MONTANA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      SILVERTIP PIPELINE OIL SPILL

                     IN YELLOWSTONE COUNTY, MONTANA

=======================================================================

                                (112-47)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                       RAILROADS, PIPELINES, AND

                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
67-383                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)




     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                  BILL SHUSTER, Pennsylvania, Chairman

GARY G. MILLER, California           CORRINE BROWN, Florida
SAM GRAVES, Missouri                 JERROLD NADLER, New York
SHELLEY MOORE CAPITO, West Virginia  RICK LARSEN, Washington
JEAN SCHMIDT, Ohio                   TIMOTHY H. BISHOP, New York
CANDICE S. MILLER, Michigan          MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           PETER A. DeFAZIO, Oregon
JEFFREY M. LANDRY, Louisiana         JERRY F. COSTELLO, Illinois
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
REID J. RIBBLE, Wisconsin              (Ex Officio)
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY
                               Panel One

Hon. Jon Tester, a United States Senator from the State of 
  Montana........................................................    14

                               Panel Two

Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, United States Department of 
  Transportation.................................................    17

                              Panel Three

Douglas B. Inkley, Ph.D., Senior Scientist, Conservation 
  Programs, National Wildlife Federation.........................    29
Gary W. Pruessing, President, ExxonMobil Pipeline Company........    29

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Denny Rehberg, of Montana...................................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jon Tester \1\..............................................
Hon. Cynthia L. Quarterman.......................................    74
Douglas B. Inkley, Ph.D..........................................    79
Gary W. Pruessing................................................    85

                       SUBMISSIONS FOR THE RECORD

Hon. Corrine Brown, a Representative in Congress from the State 
  of Florida, request to submit statement from Carl Weimer, 
  Executive Director, Pipeline Safety Trust......................     7
Hon. Bill Shuster, a Representative in Congress from the State of 
  Pennsylvania, request to submit daily reports from the 
  Environmental Protection Agency about the Silvertip Pipeline 
  oil spill......................................................    48

                        ADDITIONS TO THE RECORD

Letter from Hon. Nick J. Rahall II, a Representative in Congress 
  from the State of West Virginia, and Hon. Corrine Brown, a 
  Representative in Congress from the State of Florida, to Gary 
  W. Pruessing, President, ExxonMobil Pipeline Company, July 19, 
  2011...........................................................    88

----------
\1\ Senator Jon Tester did not submit a written statement.

[GRAPHIC] [TIFF OMITTED] 67383.001

[GRAPHIC] [TIFF OMITTED] 67383.002

[GRAPHIC] [TIFF OMITTED] 67383.003

[GRAPHIC] [TIFF OMITTED] 67383.004



                      SILVERTIP PIPELINE OIL SPILL



                     IN YELLOWSTONE COUNTY, MONTANA

                              ----------                              


                        THURSDAY, JULY 14, 2011

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the subcommittee) presiding.
    Mr. Shuster. The hearing will come to order. Good morning 
to everybody. Good morning, Senator. Thanks for joining us here 
this morning, I look forward to hearing your testimony.
    I ask for unanimous consent to allow Dennis Rehberg from 
Montana to participate in today's hearing. Without objection, 
so ordered.
    Again, good morning. Welcome, everybody, to this morning's 
pipeline hearing. We are going to make a little adjustment, I 
believe, in the panels. The Senator will go first, then the 
administrator will go by herself, and then we will have the 
other few folks go next.
    So, again, thank you all for being here. And today we are 
going to receive testimony related to the July 1, 2011, release 
of crude oil from the Silvertip pipeline in Yellowstone County, 
Montana. And, as I said, we will be hearing from the Senator, 
from Ms. Quarterman, the administrator of PHMSA, along with 
Gary Pruessing, president of ExxonMobil Pipeline Company, and 
Douglas Inkley, a scientist from the National Wildlife 
Federation.
    And also I would like to welcome Congressman Rehberg----
    Mr. Rehberg. Thank you.
    Mr. Shuster [continuing]. My good friend, for being here 
today and for requesting the hearing, and of course, inviting 
Senator Tester. We also invited Senator Baucus, at your 
request. He is obviously tied up, but I am sure he is very 
concerned, as we all are, about the situation in Montana.
    I want to offer my heartfelt condolences to all those who 
have been affected by the spill in Montana. And as chairman of 
the subcommittee, I want to ensure that Congress is being 
proactive and staying on top of these critical safety issues. I 
also want to ensure that State, Federal, and local actors and 
key stakeholders are working together and that the safety 
concerns are being adequately addressed, and that the incidents 
are subject to appropriate investigation by this committee and 
Congress.
    The United States has the largest network of energy 
pipelines--2.5 million miles--the largest in the world, and the 
pipelines remain critical to our energy life, and they power 
nearly everything in our daily lives and activities. America's 
pipeline network is the safest and most cost-effective means to 
transport the extraordinary volumes of natural gas and 
hazardous liquid products that fuel our economy.
    Both Government and industry have taken numerous steps to 
improve pipeline safety over the last 10 years. And while the 
data shows that Federal pipeline safety programs have been on 
the right track, recent pipeline incidents suggest there 
continues to be room for improvement and, to quote Secretary 
LaHood, these incidents are ``cause for concern, but not for 
alarm.''
    The pipeline companies have shown that they are 
aggressively taking action to address safety concerns, and that 
safety continues to be the top priority. In fact, incidents are 
down 30 percent over the past several years.
    Today we are focusing on gathering information regarding 
the incident in Montana, and examining what went wrong. I am 
committed to ensuring the continued safety and enhanced 
reliability in the transportation of the Nation's energy 
products by pipeline.
    Additionally, I am committed to enhancing our already 
strong pipeline system, by looking at ways to improve safety 
and coordination between the Federal Government, State 
regulators, and pipeline operators. We must ensure that we 
proceed in a thoughtful and balanced way that keeps in place 
regulatory measures that are working, and makes adjustments to 
measures that are not working.
    So, again, I thank everybody for being here. And with that, 
I will yield to the ranking member, Ms. Brown, for an opening 
statement.
    Ms. Brown. I want to thank Chairman Shuster for holding 
today's hearing on the ExxonMobil oil spill in Montana's 
Yellowstone River. This is a very timely hearing, as the U.S. 
has, unfortunately, experienced a high number of pipeline 
ruptures over the last few years that have caused significant 
environmental damage, health concerns, and death.
    I want to begin by expressing my deepest sympathy to the 
residents of Montana, who are dealing with the aftermath of 
this tragedy. As a resident of Florida, I know all too well 
that--the devastating economy and emotional effects these 
spills can have on people. Most of the Gulf Coast is still 
cleaning up after the damage that was taking place a full year 
ago. And I can assure everyone here that the oil just doesn't 
simply disappear, and could easily return to our shores, due to 
another natural disaster.
    Tomorrow will be the 1-year anniversary of capping the BP 
spill, and I am sure that we can use what we have learned in 
the spills to prevent the same mistakes from happening in 
Montana. I think we need not only to ensure that ExxonMobil 
protects its pipelines from the river that is known to be 
moving fast, and is following the law as it relates to pipeline 
safety, but that the company is also properly addressing the 
health and economic concerns of the people impacted by the 
spill.
    During the Enbridge spill in Michigan, we saw cases of 
people signing away all of their rights for air conditioners. 
Unacceptable. We need to keep ExxonMobil's feet to the fire, 
and we can't let things like this happen again to the American 
people.
    I want to also take this time to express my disappointment 
that the chairman discharged this committee from consideration 
of the bill that would force the President to make a key 
decision on whether to allow the Keystone pipeline to be 
constructed. This committee on Transportation and 
Infrastructure is the committee of primary jurisdiction over 
pipeline safety legislation, and is the primary committee to 
refer for the Keystone legislation.
    There is still major concerns with this project. And, at 
the same time pipelines will be traveling around the 
Yellowstone River, this is being affected today by the Exxon 
spill. This should have been strongly vetted by this committee, 
and I join Ranking Member Rahall in urging the committee to 
hold a markup on the legislation prior to the floor 
consideration. It would be a disaster if a spill occurred on 
the pipeline, and this committee never held a hearing on it at 
all.
    When I was chair of the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials, I held a series of five 
separate hearings concerning pipeline safety which highlighted 
significant problems with reporting and inspection, as well as 
the unhealthy relationship between the pipeline industry and 
the agency regulating them.
    In addition, much like the sewer and water infrastructure 
in this country, much of the pipeline infrastructure is 
reaching the end of its useful life, and we are going to need 
to make significant investments in improving these assets, if 
we are going to accomplish the goals of both delivering 
critical petroleum to the States, and protecting citizens from 
the danger of a hazardous pipeline spill and deadly explosions.
    We also need to develop new technology and strategies for 
improving safety in highly populated areas that are now located 
above the aging pipeline.
    With the high unemployment rate in this country it is 
currently facing, we should be hiring and training inspectors, 
and putting contractors to work replacing this aging pipeline 
infrastructure in the United States. Gas and oil companies are 
making record profit while the infrastructure with which they 
are bringing this product to market becomes more and more 
unstable.
    I hope that those testifying today will have some good 
ideas about how we can prevent future accidents and what 
Congress can do to--immediately to improve the safety of the 
Nation's pipeline.
    With that, I welcome today's panelists, and thank you for 
joining us. I am looking forward to the hearing and their 
testimony. I yield back the balance of my time.
    Mr. Shuster. Thank the gentlelady. And no one on our side 
has an opening statement. Yield to Mr. Larsen for 5 minutes for 
an opening statement.
    Mr. Larsen. Thank you, Mr. Chairman. Thanks for holding the 
hearing today. The July 1 Silvertip pipeline rupture resulted 
in the release of approximately 31,000 to 42,000 gallons of 
crude oil in the Yellowstone River. Although the causes of this 
spill are still under investigation, its occurrence is alarming 
to me and to this subcommittee.
    The rupture occurred in a high-consequence area. ExxonMobil 
inspected the line in 2005 and again in 2009, and PHMSA has not 
found any integrity-threatening defects from these inspections. 
However, there are several concerning facts that have arisen so 
far.
    First, PHMSA inspectors warned ExxonMobil several times 
that heavy flooding in the Yellowstone River could have a 
significant impact on the pipeline. It is not clear to me that 
anything was done to respond to these concerns.
    Second, the timing of the ExxonMobil's response to the 
rupture is concerning. It took a total of 55 minutes to close 
all the valves, and one of the valves was closed, reopened, and 
then closed again. This doesn't make sense. And, frankly, I 
just look forward to hearing clarification from the witnesses 
today.
    Finally, I want to take this opportunity to remind my 
colleagues and our witnesses that the 2006 Pipeline Inspection, 
Protection, Enforcement, and Safety Act, or PIPES Act, has 
expired. It is due for reauthorization. I was part of 
reauthorizing that, I was part of writing the 2002 pipeline 
safety bill, as well, because of a terrible tragedy in my own 
district in 1999 that resulted in the death of three young men.
    So, I hope this incident and the others that we have talked 
about so far in opening testimony that have occurred will spur 
this committee to reauthorize this important law, with the 
changes that I think that need to be made. And I urge my 
colleagues to work in a bipartisan manner to strengthen our 
Nation's pipeline safety laws.
    And with that, I want to thank you for holding this hearing 
today, and look forward to hearing from our witnesses.
    And, Mr. Chairman, just one more thing. Since we are 
allowing Mr. Rehberg to sit in our committee, I am hopeful he 
will allow us to sit in on the Appropriations Committee at some 
time.
    [Laughter.]
    Mr. Shuster. I am working on that right now.
    Mr. Larsen. Thank you.
    Mr. Shuster. I appreciate the gentleman's opening 
statement, and your words. You have been a leader on pipeline 
safety, and we are moving forward. We will be talking with our 
colleagues on the other side here in the next coming days and 
weeks to get a pipeline bill that we can reauthorize.
    Mrs. Napolitano, do you have a statement?
    Mrs. Napolitano. No statement, but thank you for holding 
this hearing. I am very interested in what kind of safeguards 
we may have, because what happens in one State is very prone to 
happen in other States. So thank you.
    Mr. Shuster. Thank you. And with that, I will yield 5 
minutes to my colleague, Mr. Rehberg, and take Mr. Larsen's 
words about letting us come on the Appropriations Committee and 
help out there.
    Mr. Rehberg. Well, thank you, Mr. Chairman. I really, truly 
appreciate the opportunity to sit at the dais, and for the rest 
of the committee, as well. When I left this committee in 2005, 
I had built so much seniority I was almost sitting where Mr. 
Tester is right this minute. And I would love to have you join 
my committee, Rick. That would be great.
    Right now, my sister-in-law is visiting. She is, of course, 
from your home district. She is a Tea Partier. Do you want me 
to keep her? So you make your choice. Do you want me to keep my 
sister-in-law in Billings, or let you join my----
    Mr. Larsen. I love all my constituents.
    [Laughter.]
    Mr. Rehberg. Good answer. I also want to welcome my 
colleague, Jon Tester, who accepted my invitation to join us 
here today from the lower chamber. And--that is actually an 
inside joke in Montana, because he was a senator in Montana and 
I was the representative, and we finally surveyed the floor and 
found out that, in fact, the senate was, what, about a quarter 
of an inch lower than the house. And so we always referred to 
the senate as the lower chamber in Montana.
    I look forward to working with Senators Tester and Baucus, 
and the two agencies and companies represented on the panel to 
accomplish two critical things today. First, we need to figure 
out what went wrong, so we can determine what can be done to 
prevent it from happening again. And, second, I want to be 
absolutely certain that we are doing everything that can be 
done to mitigate the environmental heath and economic impact 
from this spill.
    For many, it is just another news story about an oil spill. 
But for Montanans, this is about our home. Water and rivers 
play a big role in the lives of many Montanans. For the Maclean 
family in the famous movie, ``A River Runs Through It,'' it was 
the Big Blackfoot River. For me and my family, it is the 
Yellowstone River.
    I grew up in Billings, just a few miles from the river 
banks of the Yellowstone. As a boy, I swam and fished that 
river. I spent time with my family and friends floating down it 
in inner tubes, and barbecuing on its banks. You could say 
that, like thousands of other Montana families, the Yellowstone 
is our family river. So this oil spill is a pretty big deal for 
us. We have questions, and we deserve answers.
    As Montana's congressman, I fly into Billings just about 
every week. I fly over the Yellowstone River. But I also fly 
over the oil refinery that provides good--many good jobs for 
our community. Just like the river is a part of Montana's 
culture, so is the energy industry. Montana is a warehouse of 
energy options. We have got it all: wind, solar, geothermal, 
biomass, oil, coal, gas, biofuels. This energy options helps us 
provide the energy this country needs, and to end our energy 
addiction on oil from foreign countries. It also provides good-
paying jobs.
    While there might be some people out there who think we 
should develop our resources without any regard for the 
environment, that is not me. And there are others who think we 
should stop all human impact on the environment whatsoever. 
That is not me, either. Neither of these options works for 
Montana.
    Montanans demand a third option, a way to utilize our 
natural resources, while doing everything we can to protect our 
environment. It is a reasonable and responsible expectation. 
The United States is leading the way in providing clean, 
effective energy. We are not perfect, but when there is a spill 
or a mistake, you won't find a more scrutinized response 
anywhere in the world.
    This is one of the reasons domestic energy production is 
such a good idea. Our standard and expectations are so much 
higher than countries that we import oil from. A kilowatt hour 
of energy produced in the United States on balance is going to 
be cleaner and safer than a kilowatt hour of energy we import. 
In Montana, one of the most valuable resources is nature, 
itself.
    Montanans get it. We hunt, we hike, we don't just visit the 
outdoors, we live there. That is why I have always said 
Montanans are excellent stewards of the land, and that we don't 
need Federal bureaucrats telling us how to manage our lands and 
wildlife. This spill was a failure that did not live up to our 
standards. And I want to know why. I want to know what is being 
done, and what more needs to be done to prevent it from 
happening again.
    It is because energy is such an important part of our 
economy that it is so important to acknowledge our mistakes, so 
that we can learn from them.
    I appreciate everyone for being here today. I look forward 
to hearing your testimony, and asking some questions. I hope I 
ask some tough questions. But that is only because it is so 
important for Montana. And whether you are a part of the energy 
industry or an environmental steward, you are a big part of our 
Montana family.
    Again, Mr. Chairman, thank you so very much for having this 
hearing today. It means a lot to me that you would care as much 
about Montana as we care about Montana. And again, Mr. Tester, 
welcome to testify, as well. Thank you.
    Mr. Shuster. Thank you very much, Mr. Rehberg. And with 
that, Senator----
    Ms. Brown. Mr. Chairman?
    Mr. Shuster. Oh, 1 second.
    Ms. Brown. Yes. I would like unanimous consent to include 
in the hearing record a statement by the Pipeline Safety Trust.
    [No response.]
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 67383.005
    
    [GRAPHIC] [TIFF OMITTED] 67383.006
    
    [GRAPHIC] [TIFF OMITTED] 67383.007
    
    [GRAPHIC] [TIFF OMITTED] 67383.008
    
    [GRAPHIC] [TIFF OMITTED] 67383.009
    
    [GRAPHIC] [TIFF OMITTED] 67383.010
    
    [GRAPHIC] [TIFF OMITTED] 67383.011
    
    Mr. Shuster. And with that, Senator, proceed, please.

TESTIMONY OF HON. JON TESTER, A UNITED STATES SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Tester. Well, thank you, Chairman Shuster. I very 
much appreciate the invitation. Congressman Brown, thank you 
for Monday's invitation to this hearing to speak on behalf of 
Montana and the recent oil spill in the Yellowstone River.
    Congressman Rehberg, it is good to see you. Thank you for 
your follow-up invitation request yesterday, albeit through the 
Great Falls Tribune.
    I agree on the importance of working together on this 
critical issue. I am pleased to see people are being reasonable 
on this issue. We could stand to have a little more working 
together and being reasonable on other important issues.
    I appreciate this committee's serious consideration and 
work to make America's infrastructure safer and more secure. 
You know, Ms. Alexis Bonogofsky was supposed to be here today 
from Montana. I understand she couldn't make it because of 
health concerns, and that is too bad. Because, like Ms. 
Bonogofsky, I make a living in production agriculture. My wife, 
Sharla, and I still farm the land homesteaded by my 
grandparents 100 years ago. In fact, just last weekend I was 
home plowing down peas and stacking hay. I am the only Member 
of Congress who can say that.
    My livelihood is a farmer, and my bottom line depends upon 
clean water and healthy land. If either of those are 
compromised, Montana's farmers and ranchers cannot produce the 
high-quality feed, food, and fiber that we are so very famous 
for.
    Of course, it is not just agriculture. Many refinery jobs 
in Montana are connected with the Silvertip pipeline. And when 
incidents like this happen, those jobs are put in jeopardy.
    I would like to thank Exxon for responding so quickly to my 
request, to make sure that there would not be any layoffs while 
this pipeline is shut down.
    As chairman of the Congressional Sportsmen's Caucus, I also 
know that the land, the rivers, the lakes where we hunt, fish, 
hike, boat, and play make Montana the last best place. 
Montana's tourism and recreation industry bring in about $3.4 
billion to our State. It is Montana's second-largest industry, 
behind agriculture.
    So, as a farmer and as a sportsman, I have consistently 
questioned the safety of our current and proposed pipelines in 
Montana. In fact, when TransCanada had plans to lower safety 
standards for sections of the proposed Keystone XL pipeline 
through rural Montana, I put my foot down. They wanted to run 
thinner pipe in Montana and across rural America, and a waiver 
to run higher oil pressure. I said, ``No way,'' and they 
changed their plans.
    My message then and my message now is that there is no 
cutting corners in rural America. When I commented about the 
proposed Keystone pipeline to Secretary Clinton, I urged her to 
assure that all safety precautions were taken when permitting 
and building it. I also hinged my support on the fact that 
safety must come first, and that property rights in rural 
American must be respected and treated fairly in all 
transactions.
    Soon after the Yellowstone River spill on July 1st, I 
called upon Exxon to pay for the full cost of recovery of this 
cleanup. Taxpayers shouldn't have to pay one dime, in the end. 
Exxon reported about $11 billion in profit in the first quarter 
this year alone, and Montana taxpayers have already paid their 
fair share.
    I will continue to hold Exxon accountable through all 
avenues, including legislation. When I found out about a 
loophole in the Clean Water Act that lets companies like BP and 
Exxon off the hook, I proposed a bill to fix it. My bill 
requires companies that spill oil to pay whichever fine is 
greater, whether the fine is based on the number of barrels 
spilled, or the duration of the spill. We have real 
consequences for polluters that harm jobs and our economy.
    And finally, we expect and deserve full cooperation, 
accountability, and transparency from America's biggest and 
most profitable corporations in the wake of disasters like 
this. Exxon has been ambitious in efforts to keep us informed, 
and to respond to the needs of the communities affected by this 
spill. That is a very good thing.
    But I have been frustrated by the fact that Exxon hasn't 
always been accurate. We have heard mixed messages about how 
long it took to shut the pipeline down when the spill happened. 
We have heard different stories about how far downstream the 
oil has traveled. We have heard conflicting reports about how 
deep the pipeline was buried.
    And in this situation, Exxon was tasked with regulating 
itself; regulators were not on the job. And now we are paying a 
price for it. Does that sound familiar? Wall Street had no 
regulators, either, and it led to the collapse of our Nation's 
economy 3 years ago.
    There are always things we can do to streamline and to 
adjust regulation to make sure that they are still protecting 
consumers and the public without strangling small business. But 
without regulations, we will see more economic meltdowns and 
oil spills and corporate takeovers that hurt small business. 
Folks who say that we are over-regulated in this country are 
speaking on behalf of Wall Street and big oil. I look these 
folks in the eye and say, ``You are wrong.''
    Here we are, nearly 2 weeks after the spill, and we still 
haven't seen the spill response plan. Government regulators 
haven't given us the plan. Exxon hasn't given us the plan. I, 
along with this committee, have asked for a plan.
    Furthermore, Exxon's cleanup plan was returned to them by 
the EPA, because it was incomplete. I must ask this committee, 
I must ask Exxon, and I must ask the Administration, what good 
does a spill response plan do, if no one can access it to 
actually respond? How do we validate that these companies are 
well-prepared, if we are being stonewalled on getting the 
information?
    Are there other discrepancies which have yet to be 
explained? Why did Exxon close the valves and then reopen them, 
only to close them again? Why did Exxon cut the pipeline bed 
instead of bore it, when boring would have been safer?
    I hope we will get clear answers to these questions. There 
are more than 13,000 miles of pipelines in Montana. This time 
it was the Billings area. But there are dozens of other 
communities that could easily face the same or worse conditions 
without smarter strategies for pipeline safety. We must fully 
recover and uncover exactly what happened before, during, and 
after this spill for the sake of the folks that were impacted 
by this spill up and down the Yellowstone River. And as we do, 
it is just as important that we strive to build a culture more 
committed to safety, transparency, and full accountability 
among everyone involved.
    Unfortunately, not everyone is committed to those values. 
Yesterday, Senator Rockefeller tried to pass the Senate's 
pipeline safety bill, and I hope it can happen today. We cannot 
be in the business of saying ``no'' to safety transparency and 
accountability. We are in the business of making those values 
work for us, for the sake of our health, our safety, our 
economy, and more importantly, for our kids and grandkids.
    We are not out of the woods yet. But this hearing is a good 
sign that folks are willing to work together to make sure 
taxpayers are protected, to make sure that jobs are not lost at 
the local refinery when supply is disrupted, to make sure that 
the Yellowstone River and that the land that surrounds it are 
returned back to the way God intended it, to make sure drinking 
water downstream is clean and safe, and to protect our fish and 
wildlife.
    Looking forward, we need to make sure that all pipelines 
and proposals for pipelines need to put a premium on safety, to 
take every precaution to minimize risk. Make no mistake. We are 
all for jobs. And I am not for--I am all for responsible energy 
development using all of our Nation's resources. But above all, 
we must do it safely.
    I want to thank you again, Mr. Chairman, for inviting me to 
the committee. Thank you again, Congresswoman Brown, for 
inviting me to the committee to speak on this important 
subject. Thank you.
    Mr. Shuster. Thank you, Senator. We appreciate your 
testimony. And, again, we will do our due diligence over here, 
and get to the bottom of this. So thank you very much. 
Appreciate it.
    Go ahead, Ms. Brown.
    Ms. Brown. Senator? Senator? I also want to thank you for 
coming over. It is very good to see someone come over from the 
other body. And I am very excited that you all are close to 
passing a bill on pipeline safety, and sending it over to the 
House. Usually it is the other way around, and we send our 
bills, and it just kind of hangs over there for 2 or 3 years.
    But, seriously, thank you very much.
    Senator Tester. Well----
    Ms. Brown. Looking forward to you all sending bills over. 
We are kind of stalemate over here a little bit in the House 
right now.
    Senator Tester. Thank you. As you guys know all too well, 
and as we know in the Senate, it is never done until it is 
done. But hopefully, this pipeline safety bill by Senator 
Rockefeller will be done, and you guys can deal with it in a 
way that I know will be appropriate. Thank you.
    Ms. Brown. Thank you.
    Mr. Shuster. Thank you very much. With that, we invite Ms. 
Quarterman, the administrator, to take her place.
    And again, we changed this up a little bit. We are going to 
have Ms. Quarterman testify, and we will ask questions, and 
then we will get the--I guess it will be the third panel.
    So, whenever you are ready, Ms. Quarterman, you can 
proceed. Welcome back for, what, about your 15th visit in the 
last 2, 2\1/2\ years?
    Ms. Quarterman. Good morning. Thank you for giving me the 
record in the number of hearings.
    Mr. Shuster. I think it is the record.
    Ms. Quarterman. Probably for everybody at the department.

       TESTIMONY OF THE HONORABLE CYNTHIA L. QUARTERMAN, 
    ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
   ADMINISTRATION, UNITED STATES DEPARTMENT OF TRANSPORTATION

    Ms. Quarterman. Chairman Shuster, Ranking Member Brown, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the Pipeline and Hazardous Materials 
Safety Administration's response to and investigation of the 
July 1, 2011, ExxonMobil Pipeline Company oil spill in Laurel, 
Montana.
    Safety is the number one priority of Secretary LaHood, 
myself, and the employees of PHMSA. We are all strongly 
committed to reducing safety risks to the public and 
environment. More than two-and-a-half million miles of 
pipelines deliver energy to homes and businesses across 
America. And of those, PHMSA oversees 174,000 miles of 
hazardous liquids pipelines.
    Despite recent improvements in pipeline safety, I am very 
troubled by this oil spill, and its significant impact on the 
surrounding communities. Let me join with the chair and the 
ranking member in sending also my regrets to those families who 
are affected, the communities in Montana.
    I assure you that PHMSA is vigorously investigating this 
incident, and will continue to do so. PHMSA personnel were on 
the scene and directly engaged within 12 hours of notification 
of the spill.
    On July 5th, PHMSA issued a corrective action order 
requiring ExxonMobil to directionally drill the Yellowstone 
River crossing, and assess the risk of other major Silvertip 
pipeline water crossings. Due to the high river flow, the 
ruptured pipe is currently inaccessible for further 
examination. However, I can assure you that once the failed 
pipe becomes accessible, PHMSA will complete this investigation 
as soon as possible.
    Before the incident occurred, PHMSA and the City of Laurel 
Public Works Department jointly reviewed rising river water and 
river flow and erosion near the Yellowstone River crossing. We 
were concerned with the risks to the Silvertip pipeline. In 
response to our request, ExxonMobil performed a depth of cover 
survey that confirmed that at least 5 feet of cover was over 
the pipeline in the riverbed.
    Subsequently, ExxonMobil indicated to us that the south 
shore of the crossing, which was a cause of erosion concern, 
had averaged over 12 feet of cover over the pipeline.
    Historically, PHMSA has conducted routine inspections of 
the Silvertip pipeline for many years. As recently as July of 
2009, the agency conducted a standard inspection of the 
pipeline. We issued three enforcement actions as a result of 
this inspection. All of those were unrelated to the river 
crossing that failed.
    From June 6th to June 10, 2011, PHMSA personnel performed 
an integrity management field inspection on the Silvertip 
pipeline. At that time, no regulatory violations were found, 
with respect to the integrity assessment.
    Mr. Chairman, I assure you that PHMSA will remain vigilant 
in ensuring the safety, reliability, and integrity of all 
pipelines under its jurisdiction. We will also ensure that the 
Silvertip pipeline is free of safety and environmental risks 
before ExxonMobil is granted permission to restart this line. 
PHMSA will investigate this incident fully, to ensure that the 
line is operated safely, that the public is protected, and that 
the violations of the Federal pipeline safety regulations are 
swiftly addressed.
    Thank you, and I am happy to respond to any questions you 
may have.
    Mr. Shuster. Thank you very much. And I am going to start 
off yielding my time to Mr. Rehberg, if he has some opening 
questions.
    Mr. Rehberg. Great. Thank you, Mr. Chairman. And, Ms. 
Quarterman, thank you for joining us today. Could you explain 
to me just exactly what the investigation process is going to 
be? And will you, from that investigation, be able to tell us 
just the exact cause of the break, itself?
    Ms. Quarterman. That is the purpose of the investigation. 
Once the pipeline becomes accessible--at this point the flood 
waters are still too high to remove it--we will review the 
pipeline break to determine what the cause was.
    Mr. Rehberg. So the process is you bring the pipe up. You 
cut it, you bring it up, you inspect it.
    Ms. Quarterman. Correct.
    Mr. Rehberg. At the same time the permitting process is 
going on for the replacement, so that they can possibly get 
that pipeline up and running as soon as possible, so it 
doesn't, on the other end, affect our economy and such?
    Ms. Quarterman. That is up to ExxonMobil, in terms of the 
permitting for the new pipeline, how they want to stage that.
    We have asked Exxon to do a side scan of the area sonar, to 
get a picture of what is happening at the bottom.
    Mr. Rehberg. OK. Can you give us an indication of what kind 
of timeframe, then, the investigation will take, once the river 
recedes and you have the ability to bring the pipeline up?
    Ms. Quarterman. I think it will take several months, 
probably. And in terms of getting the pipeline up, that too may 
take weeks, if not months, before we can----
    Mr. Rehberg. Are you the one, then, that would be 
responsible for working with Exxon to make a determination just 
exactly how much was spilled into the river? You know, we hear 
conflicting reports, although--and we seem to go back and forth 
between barrels and gallons, and barrels and gallons. Clearly, 
you know, whatever looks worst gets reported.
    But ultimately, will you be able to make a determination, 
getting the facts of just exactly how much was spilled into the 
river?
    Ms. Quarterman. We hope to be able to make that 
determination once we review all the data that Exxon will 
provide. We have visited the Houston control room. So once we 
see what the pipeline looks like, we can determine pretty well 
how much oil should have been spilled, given the flow during 
that day.
    Mr. Rehberg. To your knowledge, was there any outstanding 
violations of the rules and regulations and laws, as you 
enforce, at the time of the--I know there was concern, and 
there were other violations that didn't have anything to do 
with the break, itself. But, to your knowledge, was there any 
outstanding violations that could have caused this----
    Ms. Quarterman. Well, that will be the subject of the 
ongoing investigation.
    Mr. Rehberg. Well, it would seem fairly obvious, as to 
whether there is a violation that is sitting there that had not 
been addressed. I am not talking about something that you might 
find that violates a rule or a regulation as you are doing the 
inspection. I am suggesting, up until that point, is there any 
violation that was pending----
    Ms. Quarterman. Up until that point in time, I don't 
believe there were any violations that were pending.
    Mr. Rehberg. OK.
    Ms. Quarterman. But----
    Mr. Rehberg. Could you explain? What is the point of the 
directional drilling immediately? Was that for the purposes of 
determining where the stream bed is, or--I just don't 
understand why.
    Ms. Quarterman. We ordered them to do a horizontal 
directional drill, which would make the pipeline go at a much 
lower--a depth much below the riverbed, as opposed to being--in 
this case, the pipeline was in what we call an open cut 
situation. They cut the riverbed open, stopped----
    Mr. Rehberg. But I thought the pipeline was shut off. What 
is the purpose of the directional drill, if the valve on one 
end is shut off and the valve on the other end is shut off? 
Why----
    Ms. Quarterman. Oh, the directional drill is for the new 
pipeline, if they were to put one in. It would have to be 
horizontally directionally drilled underneath the riverbed at a 
much lower place than it was, initially.
    Mr. Rehberg. Does that make the valves further away from 
the river, so that there is an additional issue of whether it 
can be shut off as fast as is necessary?
    Ms. Quarterman. It will have no effect on the valves, 
unless Exxon has a plan that we haven't seen that we would have 
to approve to change the location of the valves. I know of no 
reason why the location of the valves would need to change at 
this point in time.
    Mr. Rehberg. All right. OK. No further questions. Thank 
you.
    Mr. Shuster. Thank you, and I yield to the ranking member 
for 5 minutes for questions.
    Ms. Brown. Thank you. Ms. Quarterman, obviously, DOT, city 
of Laurel, had some concerns. And, according to the staff DOT, 
inspectors warned ExxonMobil several times that the heavy 
flooding in the river could have a significant impact on the 
pipelines. Why, given the fact that there have been historical 
flooding in the past, why were the inspectors concerned? And if 
they warned Exxon several times, I mean, why was the problem 
not dealt with upfront?
    Ms. Quarterman. I think the original concern was associated 
with the south river bank of the crossing, where there was a 
concern that there was erosion there. But the City of Laurel 
Public Works approached us. I think they had been trying to 
figure out who is the regulatory authority here. They had 
contacted FEMA and the Corps of Engineers, and eventually 
discovered PHMSA. And when they contacted us, we went with them 
to Exxon and said, ``You need to take a look at this and do a 
depth of cover survey,'' which had not been done at that point 
to determine the depth of the pipeline.
    We were concerned, not just with this particular pipeline, 
but with all the pipelines that were in flooded areas 
throughout the United States, and in June had notified 
operators on a regional basis, ``You need to be paying close 
attention to your pipelines, because of the floods.''
    Ms. Brown. Well, the Silvertip pipeline was built between 
1949 and 1954. But the section closest to the failure was built 
in 1991.
    Ms. Quarterman. Correct. Correct.
    Ms. Brown. I guess I don't understand. It was a concern 
that the coverage wasn't enough. It wasn't proper.
    Ms. Quarterman. Well, whenever there is flooding and 
pipelines are nearby, it is incumbent upon the operators of 
those pipelines to keep vigilant about the amount of cover that 
is above their pipeline. They need to be monitoring it on a 
regular basis. Our inspector, in fact, went out on a daily 
basis and was monitoring this line because of the concerns that 
had been raised.
    Ms. Brown. Were you working with ExxonMobil? I mean were 
you telling them--I saw that you verbally told them twice that 
you were concerned.
    Ms. Quarterman. Yes, we did.
    Ms. Brown. And what was their response?
    Ms. Quarterman. They gave us a depth of cover survey. They 
performed the depth of cover survey, which showed us that there 
were at least 5 feet of cover over the pipeline and the 
riverbed--this is as of December of 2010--and that there was, 
on average, I believe, 12 feet of cover on the south side of 
the crossing.
    But let me say it is the operator's responsibility to weigh 
and assess the risks associated with its pipeline. We have--in 
terms of construction requirements, a pipeline is required, at 
a minimum, to have 4 feet of cover in a riverbed of this size, 
which is more than 100 feet wide. But there are additional 
requirements. When you design a pipeline, you have to be sure 
that it is capable of dealing with stresses and external loads.
    And this particular pipeline happened to be in an area that 
could affect a high-consequence area, which means the integrity 
management rules were implicated. Pursuant to those rules, an 
operator is required, on a continual basis, to ensure that its 
pipeline is meeting all local environmental requirements. And 
by that, we include climatic, specifically.
    So, the operator has an ongoing obligation to continually 
reassess and assess the risks associated with its pipeline, 
especially in conditions like that. That is why we kept saying 
to them, ``You need to check this pipeline out and watch it.''
    Ms. Brown. I guess the last question or concern--the 
Senator raised the--who is responsible for the cleanup plan? Is 
the plan on file? Who is responsible for implementing that? I 
mean, do we have the oversight? How does it work?
    And I mean it is the same thing that happened 1 year ago.
    Ms. Quarterman. The oil spill response plan is filed with 
PHMSA, and we do have Senator Tester's request. I signed a 
letter to him yesterday, telling him that we will be getting 
him a copy of that plan.
    We do have an obligation to go through it and redact 
certain personal information, and also certain security 
information that TSA has asked us to not include for public 
disclosure.
    However, the folks who are at the scene--obviously, the 
Environmental Protection Agency leads these kinds of cleanups--
they have a copy of the report, as does the Coast Guard. So the 
response team has the oil spill response plan. It is not yet 
publicly available, simply because we haven't gone through the 
process of redacting whatever needs to be redacted. But it 
should be available shortly.
    Ms. Brown. Well----
    Mr. Shuster. The gentlelady's time is expired.
    Ms. Brown. OK.
    Mr. Shuster. We will come back again if you have more 
questions.
    Ms. Brown. Yes.
    Mr. Shuster. A question. First, I wanted to ask--Senator 
Tester brought up that--why ExxonMobil shut off the pipeline 
and turned it back on. My understanding--and I want to see if 
it concurs with you, if you think it is reasonable--they shut 
it off, they turned it back on to isolate and figure out 
exactly where the leak was. Senator Tester brought that up, 
that he had a question about that. Does that sound reasonable 
to you, for them to shut it off, turn it back on, to try to 
isolate and find where the leak is coming from?
    Ms. Quarterman. Well, I--that is the subject of our 
investigation, obviously.
    They shut off a valve on the pipeline. The pipeline, 
according to our timeline, at 10:04 there was a low-pressure 
alarm. At 10:41--not 10:04, sorry, 10:40 p.m. Mountain Time. At 
10:41, the Edgar Station went down, and the ExxonMobil control 
center operation knew that there was a problem. At 10:47 the 
control room operator shut down the pump station that would be 
pumping crude through the line. At 10:57 the control room 
closed the Laurel Station valve, which was north of the river. 
Now, this is not the valve that would stop crude oil from 
flowing into the river.
    At 10:57 they closed the valve--I just said that. At 11:36 
they ultimately closed the river valve that is south of the 
river. Now, I understand that there may have been some opening 
and closing of that northern valve. I don't know why. That will 
be the subject of our investigation.
    Mr. Shuster. All right. Thank you. And I know that in 
October you started to actively monitor the pipeline. And, of 
course, the failure that occurred last month. Those additional 
warnings, have you--or those additional monitorings, have you 
had a chance to go back and review your monitoring and try to 
figure out what you could have done differently at PHMSA, or 
you haven't had an opportunity to really do an after-action 
report?
    Ms. Quarterman. We haven't done an after-action report at 
this time. We are still getting documents, not only internally, 
but also from ExxonMobil, which will be a part of our review of 
the investigation.
    Mr. Shuster. And, additionally, I guess a month before the 
pipeline failed, you did a review and discovered there was no 
violation of Federal regulations, but you did discover an 
anomaly in the pipeline.
    Ms. Quarterman. That is correct.
    Mr. Shuster. Can you talk about that anomaly? What----
    Ms. Quarterman. Yes. Because of all the sensitivity 
associated with this pipeline, I believe the inspectors wanted 
to do an extra effort. So, in June of this year, they went to 
ExxonMobil to look at the Silvertip pipeline in-line inspection 
run. There had been two in-line inspections done in 2004, and 
another in 2009.
    With respect to the 2009 run, they looked at the entire run 
of the river crossing, and looked at the raw data to verify 
whether they agreed with the conclusions that were drawn there. 
They did find one anomaly that was below the regulatory cut-off 
for taking an action.
    Obviously, once the pipeline is removed from the river, we 
will take a close look----
    Mr. Shuster. Yes.
    Ms. Quarterman [continuing]. To see if anything--if that 
anomaly is in place, as it was then, or if it contributed to 
this in any way.
    Mr. Shuster. All right. And I know additionally for several 
years you--PHMSA--has been concerned about scouring and erosion 
occurring in the Silvertip pipeline area of the Yellowstone 
River. Are there other examples where scouring erosions 
occurred, where maybe fast-moving debris has caused the damage 
to the pipeline anywhere in the country that you have seen this 
happen before?
    Ms. Quarterman. This has happened before in the country in 
the past. I believe there was a San Jacinto pipeline incident 
in the 1990s, where eight pipelines burst in the Texas area on 
the flood plain there. It is not a usual occurrence, but it is 
something--obviously, when a flood occurs--that you have to be 
cognizant of and vigilant about.
    Mr. Shuster. Right, OK. Thank you. And I will yield to Mr. 
Larsen. You have 5 minutes for questions.
    Mr. Larsen. Ms. Quarterman, the accessibility of the 
pipeline, you say we have to wait until the river comes down. 
Do we have a timeline on that? Are we looking August/September? 
Or--yes, August/September timeframe?
    Ms. Quarterman. I--this is a guess on my part----
    Mr. Larsen. Yes, right.
    Ms. Quarterman [continuing]. But based on what I have 
heard, it would suggest August----
    Mr. Larsen. OK.
    Ms. Quarterman [continuing]. Is more likely than September.
    Mr. Larsen. So it is going to be at least in the next 
month, perhaps, before you can actually get into the river. And 
the process for getting to the pipeline? Your--the agency's 
process to actually get physically to the pipeline, once the 
river is low enough?
    Ms. Quarterman. Exxon will be responsible for exposing the 
pipeline, and we will be there on site to take custody of it, 
once it comes from the water into our examiner----
    Mr. Larsen. And then will you remove all the pipeline just 
within the riverbanks, or between the valves, do you know?
    Ms. Quarterman. At this time I think it is too soon to say.
    Mr. Larsen. Yes. And this is a--this was in a high-
consequence area, as defined by the law. Is that right?
    Ms. Quarterman. By the regulation, yes.
    Mr. Larsen. By regulation. And the requirements for testing 
in an HCA for liquid fuel, can you remind us of that?
    Ms. Quarterman. Once every 5 years.
    Mr. Larsen. Once every 5 years. With a pig?
    Ms. Quarterman. That is what was done in this instance. 
That is the preferred, shall we say?
    Mr. Larsen. Yes, sure. OK. And so--and that was last done 
in 2009?
    Ms. Quarterman. Correct.
    Mr. Larsen. For this. And any visual inspection on the 
pipeline--I don't know about--is this above ground when it is 
not to the river, or is this all underground?
    Ms. Quarterman. It is all underground, as far as I know.
    Mr. Larsen. Yes, OK. So it wouldn't be visual. All right.
    You said that there was no sign of integrity problems--
there were three violations, but none of those violations were 
related to, as far as you can tell, to this particular problem. 
Can you tell us why that is the case? Can you assure us that is 
the case?
    Ms. Quarterman. I am happy to give you a copy of our 
findings from those particular inspections. I don't have a 
catalog right now of everything that--what our findings were. 
But I know they didn't relate to this particular river 
crossing.
    Mr. Larsen. If you could, follow up with us so that we 
can----
    Ms. Quarterman. Absolutely.
    Mr. Larsen [continuing]. Be assured that that is the case 
as well, as we look into this. I appreciate it.
    So, where does NTSB fit into the investigation? Are they 
doing their own separate investigation?
    Ms. Quarterman. No, they are not doing an investigation. 
The NTSB probably investigates a very small percentage of the 
number of pipeline incidents that occur in the country. They 
usually have to be of a certain size. They don't have as many 
people as we do, who have expertise in this. And I think they 
are pretty busy right now, investigating some of the earlier 
incidents----
    Mr. Larsen. OK.
    Ms. Quarterman [continuing]. Around the country.
    Mr. Larsen. I know they were involved with Olympic pipeline 
that exploded in my district----
    Ms. Quarterman. Yes.
    Mr. Larsen [continuing]. About a decade ago. The process 
that you all have right now is strictly investigation. And then 
what are your options when your investigation is done? 
Generally, what are your options?
    Ms. Quarterman. We are investigating one for cause, but 
also to determine whether there are any violations of the 
pipeline safety regulations. At that point, we have brought 
authority to issue all sorts of penalties, civil penalties, 
compliance orders, violations, amendments to the plans. We will 
be looking, obviously, at whatever needs to be done, based on 
our findings.
    Mr. Larsen. And strictly on the civil side?
    Ms. Quarterman. If we see a potential criminal violation, 
we would refer that.
    Mr. Larsen. Yes, OK. Thank you, Mr. Chairman, appreciate 
it.
    Mr. Shuster. Thank you. And now Mr. Hanna from New York, 
recognized for 5 minutes for questions.
    Mr. Hanna. Thank you, Mr. Chairman. You said that your 
requirements for depth of these pipelines is roughly 4 feet?
    Ms. Quarterman. Mm-hmm.
    Mr. Hanna. And you said that the--in case I am mistaken--
that the report that was given to you was--showed that the 
pipeline was 12 feet deep, is that right?
    Ms. Quarterman. The report covered a span, both underneath 
and to the sides of the crossing. The riverbed requirement is, 
at a minimum, 4 feet for more than 100 feet across.
    Mr. Hanna. Right.
    Ms. Quarterman. And it was at least 5 feet. The 12 feet 
comes in on the----
    Mr. Hanna. Banks.
    Ms. Quarterman. The banks of the river, yes. There was some 
concern by the Public Works. I think a lot of their concern was 
focused, really, on the south bank of the riverbed when we went 
out there initially.
    And so, some time earlier this year we got a request from 
them to further follow up with ExxonMobil, and we asked them, 
``What is the covering on that south bank?'' And they said, on 
average, 12 feet.
    Mr. Hanna. So--but to the best of your knowledge, it was 
over 4 feet through the riverbed?
    Ms. Quarterman. To the best of my knowledge. As of December 
of 2010----
    Mr. Hanna. And your goal, through horizontal drilling, is 
to make it deeper than that, I take it?
    Ms. Quarterman. Correct.
    Mr. Hanna. And what are you proposing?
    Ms. Quarterman. We haven't set a particular number of feet. 
This is a process that, you know, Exxon will have to come with 
us--come to us with a proposal.
    Mr. Hanna. You have no idea yet whether it was a leak 
caused by a lack of cathodic protection, or if it was a leak 
that was a function of scouring, or if it was just mislaid----
    Ms. Quarterman. Correct.
    Mr. Hanna [continuing]. And rubbed against stones, or 
something like that.
    Ms. Quarterman. Correct.
    Mr. Hanna. Are these lines cathodically protected?
    Ms. Quarterman. They are.
    Mr. Hanna. OK. Thank you very much.
    Mr. Shuster. Thank you, Mr. Hanna. Mrs. Napolitano, 
recognized for 5 minutes for questions.
    Mrs. Napolitano. Thank you, Mr. Chairman. Ms. Quarterman, 
thank you for being here today. It is good to see you.
    Ms. Quarterman. You too.
    Mrs. Napolitano. According to your staff, the DOT 
inspectors verbally warned ExxonMobil several times that heavy 
flooding in the river would have a significant impact on the 
pipeline. Question is: Why?
    And, given the facts there have been historic flooding at 
least twice--I believe it was in--I don't have the correct 
years, I think it was 1996 or 1997, or the heavy flood years--
why--given the fact there is this historic flooding in the 
past, nothing new in that area, why were the inspectors 
concerned?
    Ms. Quarterman. They wanted to be sure that Exxon had taken 
all steps necessary--ExxonMobil had taken all the steps 
necessary--to ensure that, given the high level of flooding, 
there would not be a problem with this pipeline.
    Mrs. Napolitano. OK. But I guess maybe I am trying to reach 
why it--do they inspect it regularly? By law they have to 
inspect the area--let's see. Each--Federal regs require each 
operator, at intervals not exceeding 3 weeks, to at least 
inspect 26 times each calendar year the surface conditions on 
or adjacent to each pipeline right away.
    Was there something that they saw that they--caused them 
concern and asked Exxon to ensure that they inspected?
    Ms. Quarterman. I think the source of their initial concern 
was the call from the City of Laurel Public Works, who----
    Mrs. Napolitano. OK.
    Ms. Quarterman [continuing]. Were concerned about the south 
crossing, the south bank of the river. Then, the flood waters 
began to rage throughout the United States, and that added to 
their concern, not only on this pipeline but on other pipelines 
that were affected, to make sure that the operators were 
actually paying attention, and----
    Mrs. Napolitano. OK. Does PHMSA have copies of the--
ExxonMobil's integrity management plan and oil spill response 
plan? Do you keep those on file? And when was the last time 
these were reviewed?
    Ms. Quarterman. We do not have a copy of the integrity 
management plan. That is something that the inspectors view 
when they go out to perform an inspection. We do have on file a 
copy of the oil spill response plan. That is the document that 
Senator Tester referred to earlier, and which we are readying 
to produce to a number of people who have requested it.
    Mrs. Napolitano. Mr. Chair, I don't know whether that is 
proper to ask her, for us to be able to see what response plan 
there was, and what the date of that plan would have been. Was 
it updated? Was it upgraded, based on the findings after the 
floods? Were there reviews to ensure that the erosion had not 
been so bad that it was a cause of concern?
    Ms. Quarterman. I am happy to supply you with a copy of 
that. My recollection is that it was updated at the end of 
2010, but perhaps the witness from ExxonMobil would be better 
to answer the exact date.
    Mrs. Napolitano. OK. Well, you know, I am going back to if 
the river was as swift and mobile and USGS indicates, then 
ExxonMobil should have been there annually, verifying the depth 
of cover over the pipeline, due to the historical area. You can 
do all the internal diagnosis and diagnostics. But if the 
overburdened cover was thinning, then you are setting yourself 
up for disaster, which may have been what happened here.
    The DOT and the city of Laurel was clearly concerned about 
the river score and bank erosion at Yellowstone River crossing 
over the pipeline. In fact, DOT checked with ExxonMobil twice 
on the depth of cover to confirm results December 1st, last 
year, when the depth of cover survey was first completed, and 
then again in June, to confirm the current depth of cover.
    Was there a reason DOT kept checking back, besides the city 
of Laurel being concerned?
    Ms. Quarterman. Well, we were concerned, as well. And we 
just wanted to make sure that they were paying attention.
    Mrs. Napolitano. OK. And there is also talk about doing the 
new laying of the pipe once--concurrent to the investigation. 
Is this going to be bored? Is it going to be deeper? You talk 
about lower, but you don't indicate how much lower.
    Ms. Quarterman. In our corrective action order, we require 
them to horizontally drill this pipeline beneath the riverbed. 
We did not, the best of my recollection, set a depth number. 
Exxon will be required to come in with a plan for us to 
approve.
    Mrs. Napolitano. Are there standards for the rivers that 
have higher river flow than others for the amount of sediment 
that is left, or, I mean taken away?
    I am trying to figure out how much lower will that be, 
enough to be able to allay some of the concerns the community 
may have in the future about flooding? Or, I mean, about the 
spills?
    Ms. Quarterman. Yes. At this point I don't know how low it 
will be. It could be as low as 20-some-odd feet below the 
riverbed.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Shuster. Thank you. And Ms. Richardson, do you have 
questions? We have no one left on our side, so go ahead.
    Ms. Richardson. Yes. Thank you, Mr. Chairman. Ms. 
Quarterman, it is my understanding that committee staff has 
requested information on the crude oil and other chemicals that 
are transported in this Silvertip pipeline but have yet to 
receive any response. What is the gravity of the rating of the 
crude oil that was being transported in the pipeline at the 
time of the rupture? What are the gravity ratings of other 
crude oil, if any, are transported in that line? And will you 
commit to providing to this committee the information 
requested, including any materials, safety data sheets, or 
shipping papers for the hearing record?
    Ms. Quarterman. I am unaware of that request from the 
committee. I do not know the gravity of the crude in that 
pipeline. ExxonMobil, who will testify after, should be able to 
provide that information for the record. We do not keep copies 
of any shipping documents associated with, you know, the 
movement of crude oil on pipelines.
    Ms. Richardson. Would you be willing----
    Mr. Shuster. Excuse me, just want to--we have that 
information, and we can share it with you at another point. I 
don't know if your side has access, but we have it, so----
    Ms. Brown. Probably not.
    Ms. Richardson. We don't have the information.
    Mr. Shuster. We will get it to you.
    Ms. Richardson. OK. My next question has to do with--also 
last Friday, it is my understanding, on the Democratic side we 
requested copies of all claim forms. Do you guys have those, as 
well?
    Mr. Shuster. I don't--repeat that again, please.
    Ms. Richardson. It is my understanding we also requested 
copies of all claim forms, including any forms dealing with 
medical claims or reimbursement of expenses.
    Mr. Shuster. We didn't request that, but I don't know if 
you requested it--we didn't get it.
    Ms. Richardson. OK. So, would you be able to assist us in 
getting copies, or has your office determined the need to 
request copies of all the claim forms, including any forms 
dealing with medical claims and reimbursement of expenses? So 
far we haven't received anything. Would you be able to assist 
us in that effort?
    Ms. Quarterman. That is not something that we collect. The 
Environmental Protection Agency is the incident command leader 
in this particular spill. They are the ones responding to the 
spill and to claims. ExxonMobil, again, will probably have 
copies of all those claims.
    Ms. Richardson. OK. My last two questions--I have got about 
3 minutes here--does the PHMSA have copies of ExxonMobil's--I 
think Mrs. Napolitano asked this question--of the integrity 
management plan, and you said no. And my question would be, is 
it normal for you to have those?
    Ms. Quarterman. No, it is not. It is something that is 
intended to be a document that is kept alive, so continually 
updated. And it is one that our inspectors review when they go 
to visit and inspect an operator, and review it there for 
accuracy.
    Ms. Richardson. But it was not there, or not available at 
the previous inspections?
    Ms. Quarterman. As far as I know, it was there. I am sure 
it was. There were no violations associated with not having 
such a plan.
    Ms. Richardson. And do you have any process in place, based 
upon now these things that have happened, to consider, if it is 
a living and breathing document, that you continue to get 
updates throughout?
    Ms. Quarterman. Well, we don't have the original plan. I 
think it is an issue that we have been discussing internally, 
how we can have more data associated with pipelines, and how we 
might gather, store, protect that data.
    Ms. Richardson. What is the reason why you wouldn't want to 
have the information?
    Ms. Quarterman. Certainly we would want to have as much 
data as possible. It is not a question of want.
    Ms. Richardson. OK. So are you officially requesting of 
this committee that we would assist you in having that done?
    Ms. Quarterman. I can't state a position on that at this 
point without having it cleared throughout the Administration. 
I would say that we are, as part of our reauthorization package 
that was sent to the Hill in 2010, there was one initiative 
that related to data and the need for data.
    Ms. Richardson. OK. Could you forward that to the 
committee? Because I don't recall seeing it. Yes.
    Ms. Quarterman. Sure.
    Ms. Richardson. Thank you. My last question. In your 
opinion, should MobilExxon--ExxonMobil, excuse me--have 
addressed the unique conditions of the flow of the Yellowstone 
River in their design, construction, and maintenance of the 
pipeline? And should that be--do you feel that that should be 
addressed in their integrity management plan? And do you 
believe that it should be annually verified, the depth of the 
cover of the pipeline?
    Ms. Quarterman. I believe that, yes, those things must be 
considered. I mean it is the operator's obligation to consider 
all the environmental aspects of where it is laying its 
pipeline, including the location of a riverbed--river, the 
historic flow levels, the expectations for floods. All that 
should be considered in any design for any river crossing.
    And in terms of depth of cover, you say once a year. I 
would say as often as is necessary to ensure that that depth of 
cover is sufficient.
    Ms. Richardson. And are you aware if that was in the 
current integrity management plan? And that is my last 
question, I am sorry.
    Ms. Quarterman. I don't know the answer to that question.
    Ms. Richardson. Will you find out for us, and advise the 
committee?
    Ms. Quarterman. We don't have a copy of that on file. We 
can try to ascertain that. Perhaps ExxonMobil can answer that 
question, as well.
    Ms. Richardson. Well, I would think, in light of what is 
going on, you probably would want to know that as well, right?
    Ms. Quarterman. Well, it will be part of our investigation, 
obviously.
    Ms. Richardson. Thank you. Yield back.
    Mr. Shuster. Ms. Quarterman, thank you very much for being 
here. I am confident we will see you again.
    [Laughter.]
    Mr. Shuster. Thank you very much, and you are----
    Ms. Quarterman. Hopefully to reauthorize the pipeline 
safety program.
    Mr. Shuster. We are moving forward with that post-haste. So 
thank you very much for being here today.
    And I would like to invite Mr. Pruessing and Dr. Inkley to 
come to the witness desk.
    [Pause.]
    Mr. Shuster. All right, again, thank you both, gentlemen, 
for being here today. And, Dr. Inkley, we will start with you.
    Dr. Inkley, as I said earlier, is a scientist from the 
National Wildlife Federation. Thank you very much. And you can 
proceed.

   TESTIMONY OF DOUGLAS B. INKLEY, PH.D., SENIOR SCIENTIST, 
 CONSERVATION PROGRAMS, NATIONAL WILDLIFE FEDERATION; AND GARY 
      W. PRUESSING, PRESIDENT, EXXONMOBIL PIPELINE COMPANY

    Mr. Inkley. Thank you, Chairman Shuster. Thank you for the 
opportunity to testify this morning. I appreciate that you and 
the ranking member and all of the committee members are here 
today.
    I am testifying in lieu of Ms. Alexis Bonogofsky, to whom 
the invitation was originally extended. Her family farm, or 
ranch, lies along the banks of the Yellowstone River, near the 
site of the spill. Unfortunately, she had to be taken to an 
emergency room earlier this week, where she was diagnosed with 
acute hydrocarbon exposure, and is unable to be here today.
    As we consider pipeline safety, it is important to keep 
three facts in mind. The first of these is that the Yellowstone 
River oil spill is America's third major oil spill in just 15 
months. The second is that, in large spills, at best, only 10 
to 15 percent of the total oil spilled is ever recovered. EPA 
indicated yesterday that was only 1 to 5 percent in this spill. 
And third, the effects of oil on the environment may not be 
immediately obvious, but can last for years.
    Crude oil from this pipeline is a serious threat to people 
and wildlife. Drinking and irrigation water are at risk of 
contamination. Relatively immobile wildlife, such as frogs and 
salamanders, turtles, beavers, muskrats, and otters, they are 
all in harm's way. Of greatest concern to me is the aquatic 
food chain, including the many fish that have no place to seek 
refuge. The endangered pallid sturgeon lives downstream from 
the spill.
    As I earlier noted, my colleague, Ms. Bonogofsky, fell ill 
due to hydrocarbon exposure. But furthermore, her summer 
pastures, which are critical for her livestock, are ruined by 
the oil contamination, and she cannot allow her livestock to 
feed in that.
    The inadequacy of the response has been reported widely in 
the press. Ms. Bonogofsky learned about the spill when she 
discovered oil on her property, and then read about the 
pipeline rupture in the local paper. She was never formally 
notified. She had to discover it herself.
    When she called the county health department, she was told 
that the oil was ``just an irritant.'' Yet, in the Utah 
Department of Health's response to a recent 33,000-gallon spill 
near Salt Lake City, they had a long list of potential health 
impacts, including lung, liver, and kidney damage, infertility, 
and immune system suppression. Clearly, crude oil is far more 
than ``just an irritant.''
    When Ms. Bonogofsky was directed to State officials to 
call--by State officials to call an ExxonMobil hotline, 
initially they provided her with no information. They were 
there just to take her information. A public relations person 
from ExxonMobil would not tell her what chemicals were in the 
oil, or if any had been added, and she still doesn't know.
    Unfortunately, I am a veteran of previous oil spills, 
including the Deepwater Horizon oil spill disaster last year in 
the Gulf of Mexico. Sadly, I believe that industry is using the 
same play book to respond to this particular oil spill. 
Industry assures everyone that operations were safe. Industry 
responds slowly to the spill. Industry understates the size of 
the spill.
    Industry keeps the public in the dark. Governor Brian 
Schweitzer pulled Montana out of the incident command center 
because ``ExxonMobil was refusing to be transparent with the 
public.''
    And industry keeps the press out. Montana Governor 
Schweitzer again stated, ``They have security guards that don't 
let the press in.'' Same thing happened in the Gulf.
    It is not surprising, though, that this is the industry 
play book. There is a lot to hide. From 2000 to 2009, pipeline 
accidents onshore accounted for more than 2,000 significant 
incidents, and 161 fatalities in the United States. Since 
January 2010, 2.3 million gallons of oil spilled, causing $46 
million in damage to private property and to the environment.
    Just weeks prior to the spill, this particular spill, a 
Federal inspector assessed the pipeline to be in compliance 
with Federal pipeline safety standards. So, clearly, industry 
and the existing--the existing--pipeline safety standards are 
failing to protect public health and the environment.
    My written testimony contains a list of recommendations to 
improve pipeline safety. These include, among others, requiring 
incidents to be reported immediately to Federal and State 
agencies, and to all people potentially affected. Require 
accurate, independent assessment of spill size. Require long-
term monitoring of spills down river and in repairing zones, 
and of impacts to fish and wildlife populations. Require 
immediate public disclosure of the chemical composition of 
spilled oil.
    In closing, it is imperative that safety standards be 
improved. Industry is now promoting its riskiest project yet: 
nearly 20 times the capacity of the Silvertip pipeline, the 
Keystone XL tar sands pipeline. Unfortunately, the House may 
soon vote on a bill to fast-track the permitting of this new 
pipeline. Instead, I believe that Congress should first focus 
on enacting legislation to improve our Nation's pipeline safety 
policies, not fast-track another pipeline.
    Thank you again, Mr. Chairman, for the opportunity to 
testify.
    Mr. Shuster. Thank you, Doctor. And now, Mr. Pruessing, who 
is the president of ExxonMobil Pipeline Company.
    Mr. Pruessing, please proceed.
    Mr. Pruessing. Chairman Shuster, Ranking Member Brown, 
members of the subcommittee, thank you for the opportunity to 
discuss the pipeline incident that occurred on July 1st in the 
Yellowstone River in Montana, and to update you on the progress 
we have achieved to clean up the spill.
    Before I begin, however, allow me to repeat our sincere 
apologies to the people of Montana. We deeply regret that this 
incident occurred, and are steadfastly committed to not only 
complete the cleanup, but also to build the learnings from this 
incident into our future operations.
    This requires, first, that we understand exactly what 
occurred. We do not yet know the precise cause of the apparent 
breach in the Silvertip pipeline, and we will not likely know 
until our investigation is complete.
    We do know that the pipeline had met all regulatory 
requirements, including a 2009 pipeline inspection and a 
December 2010 depth of cover survey. Additionally, as recently 
as last month, the United States Department of Transportation's 
Pipeline and Hazardous Materials Safety Administration, or 
PHMSA, performed a field audit of the pipeline's integrity 
management program.
    And, of course, we do know the effects of the incident. The 
pipeline lost pressure the night of July 1st. And within 7 
minutes, our employees shut down the pumps. Shortly thereafter, 
we began closing valves to isolate segments of the pipeline, 
and minimize any release. We estimate that no more than 1,000 
barrels of oil spilled.
    We notified the national response center, and immediately 
began implementing our emergency response plans, drawing upon 
local resources at the ExxonMobil Billings Refinery, as well as 
our experts across the country. A unified command center, led 
by the Environmental Protection Agency, and involving almost 
700 people now, directs the response.
    This coordinated effort, combining the resources and 
expertise of Government, industry, and others, is crucial to 
effective cleanup and recovery. I speak on behalf of our entire 
company in thanking the public servants at all levels of 
Government, and the volunteers from nongovernmental 
organizations contributing to this effort. This includes 
professionals from PHMSA, the Environmental Protection Agency, 
the United States Department of the Interior, the Montana 
Department of Environmental Quality, Montana Fish, Wildlife, 
and Parks, the Yellowstone County supervisors--or 
commissioners, local response organizations, International Bird 
Rescue, and many others.
    As part of our cleanup strategy, we have divided the area 
down river of the spill into four zones. In the first two 
cleanup zones, covering a combined distance of about 19 miles, 
we have deployed approximately 43,000 feet of boom, 260,000 
absorbent pads, and several vacuum trucks, boats, and other 
equipment to capture oil. Our priority is to ensure that the 
cleanup is safe and effective, a task made more challenging by 
the persistent high-water levels in the Yellowstone River. At 
the same time, through the unified command, we continue to 
conduct air and water quality monitoring of over 200 miles of 
the river, as well as wildlife assessments and recovery 
efforts. To date, EPA monitoring confirms there is no danger to 
public health, and no reported water system impacts.
    We have also brought in recognized experts to actively 
monitor the impact on local wildlife. So far, a total of four 
animals have received treatment: one garter snake, two--one 
warbler, and two toads. In addition, International Bird Rescue 
has identified several oiled birds, and they are assessing if 
any require capture and cleaning. Monitoring and mitigating the 
impact of the spill on wildlife will remain a priority of ours 
throughout the cleanup.
    The Silvertip pipeline plays an important role in supplying 
energy to the Billings area and, therefore, helps sustain local 
jobs and economic growth. We are committed to replace the 
damaged pipe, using horizontal and directional drilling 
techniques, with a new section that will lay approximately 30 
feet below the riverbed, consistent with the PHMSA direction.
    Of paramount concern to us is the impact on the local 
communities. We established a community information line, and 
have received more than 300 calls. A number of these calls are 
claims related to property, agriculture, health, and we are 
actively responding to more than 120 of those. We have also 
sent 6 teams door to door to visit more than 150 residents in 
the most impacted areas. It is our goal to respond to 
individual concerns within 24 hours.
    I am pleased to report that these outreach efforts have 
mostly received a very positive response. In fact, more than 
130 calls to the information line have been offers of help. 
This outpouring of local volunteer support is immensely 
helpful. It testifies to the resilience, industry, and 
generosity of the people of Montana. We deeply appreciate their 
understanding and support.
    To repeat, ExxonMobil Pipeline Company takes full 
responsibility for the incident and the cleanup. And we pledge 
to satisfy all legitimate claims. But even then, our work will 
not be done. We are equally committed to learn from this 
incident, and to build those learnings into our future 
operations. Thank you.
    Mr. Shuster. Thank you, Mr. Pruessing. And I will first go 
to Mr. Rehberg for questions.
    Mr. Rehberg. Thank you, Mr. Chairman. Dr. Inkley, I was 
listening to your testimony, and I missed the point. Were you 
suggesting that there is water in--irrigation water violations 
or damage now, or that you suspect there will be, or were you 
talking about with a oil spill it happens, and it is something 
we need to be cognizant of? I just missed that point, I am 
sorry.
    Mr. Inkley. The latter. With an oil spill of this 
magnitude, we need to be cognizant that all of these natural 
resources are at some risk. So the monitoring is appropriate to 
be done intensely, and for a certain period of time.
    Mr. Rehberg. OK. So I suspect that, at this point, there is 
less likelihood of that occurring.
    Mr. Inkley. At this time there is less likelihood of that 
occurring. But the thing that concerns me is that the EPA has 
said that there is no danger to public health, yet Ms. 
Bonogofsky was diagnosed with hydrocarbon exposure, and we have 
spread some 1,000 barrels of toxic chemicals across the 
landscape.
    Mr. Rehberg. Yes.
    Mr. Inkley. It doesn't compute, for me, that there is no 
risk or danger to public health. It seems to me that there very 
much is a danger to public health, and we shouldn't----
    Mr. Rehberg. Mr. Chairman?
    Mr. Inkley [continuing]. We shouldn't ignore that.
    Mr. Rehberg. Mr. Chairman, for the record, I did have a 
meeting, a conference call, that was public and the press was 
invited, with CDC and the NIH. And they both said that there 
was no health risk that they could verify at this time, as 
well.
    So, the evidence is starting to mount--that is not to 
suggest that we don't want to continue to monitor, that there 
aren't going to be problems. We want to be cognizant and 
vigilant, to make sure what you are suggesting does not occur. 
It is just so far, in hearing at least from the EPA and from 
NIH and CDC to this point----
    Mr. Shuster. Right.
    Mr. Rehberg [continuing]. There is no----
    Mr. Shuster. Right.
    Mr. Rehberg [continuing]. No health risk at this time. You 
had mentioned, then, Mr. Pruessing, in your testimony, drinking 
water. How about irrigation? Because, of course, I have a lot 
of friends along the river. They have pastures. They say that 
the pastures are soiled, they cannot graze their cattle.
    So, one, are you seeing any damage to irrigation water? 
And, two, are your adjusters going to go in and remunerate for 
the loss of use, in the particular case of somebody who is 
trying to graze cattle, or whatever?
    Mr. Pruessing. Well, first, through the unified command 
there is sampling being done of the river water. That work was 
initiated some time ago. The EPA has been the lead in that, and 
they have already indicated to us that they have not found 
anything in the water that would be a problem for irrigation. 
So, actually, in one of the recent public meetings, I did hear 
them say that it would be OK to use that.
    That said, we are very anxious to respond to any claims 
that people have, or any concerns they have. And we are 
encouraging people to use the information line if they have 
questions or concerns. And we want to respond to each one of 
those on an individual basis.
    To the extent that people cannot use their fields for feed, 
or cannot use the water, we are going to respond to those and 
provide that.
    Mr. Rehberg. Does the EPA have a process where there is a 
sign-off? Obviously, with the municipalities and the water 
systems, you know, there is a turn-on date. But with 
irrigation, is somebody out there signing something saying, 
``Good to go, open your flood gate, or your head gate, go ahead 
and irrigate''?
    Mr. Pruessing. Certainly from our perspective, we are not 
asking citizens to sign anything.
    Mr. Rehberg. No. I mean some kind of a Governmental entity 
that gives them the go-ahead after all the various assurances 
and testing that EPA is doing.
    Mr. Pruessing. Yes. The EPA is taking the lead in 
communicating to the people of the community about the water. 
But, again, as I know, and what I have heard them say, they are 
not indicating there is any issue with the irrigation water.
    Mr. Rehberg. OK. I had read somewhere that the EPA had 
suggested a September 9th deadline for cleanup. Is that a hard 
and fast rule? I mean is that even possible?
    Mr. Pruessing. We have not put any end date on the cleanup. 
We are committed----
    Mr. Rehberg. But EPA?
    Mr. Pruessing. I am not aware of any dates that the EPA has 
set, as well. I do know that the EPA is in the leadership role, 
but very integrated in the unified command. But we have said 
many, many times that we are committed to do the cleanup until 
it is finished, and we will be there as long as necessary.
    Mr. Rehberg. Yes, I have seen the pictures of, you know, 
where it has gone over the bank, it is in people's lawns. That 
is the easy stuff to see, because you can see it when you fly 
over or when you are walking.
    But there is also some underbrush. What do you do? Are you 
going to go in and mow? Do you have a chemical that eats it up? 
How do you get--you know, think of a tumbleweed as an example, 
with oil all over the tumbleweed. Now, it is a great, big bush 
on the stream. How do you get in and clean up that tumbleweed, 
so you know that everything is cleaned off?
    Mr. Pruessing. You are correct that our early work has been 
to get into the backwater areas where the river is not flowing 
as quickly, to absorb any oil that may still be in that area. 
As the river starts to recede, we will be able to access 
additional areas to inspect, to make sure that there is not 
damage there.
    Again, the final decision on what is the proper cleanup 
method so that we do not damage the environment, but also can 
pick up the oil, is part of the unified command. And the EPA, 
the State of Montana, and ExxonMobil will work together to make 
sure that we have the right solution from an environmental 
standpoint.
    Mr. Rehberg. So you will stay until it is clean?
    Mr. Pruessing. That is correct.
    Mr. Rehberg. Thank you.
    Mr. Shuster. With that, Ms. Brown, recognized for 5 minutes 
for questions.
    Ms. Brown. Thank you. Mr. Chairman, first of all, I want to 
say less than 2 weeks ago, people on this committee were trying 
to wipe out EPA. I mean here today we understand the importance 
of having EPA to monitor the system and someone to have 
oversight.
    Let me just first of all ask a question. They were trying 
to wipe out EPA by cutting the funding. That is wiping it out. 
I mean leaving something on the books, and not being able to 
monitor this kind of situation is why we have EPA in the first 
place. Do you know when EPA, Mr.--will you pronounce----
    Mr. Pruessing. Pruessing.
    Ms. Brown. Pruessing. Do you know when EPA started to 
conduct their monitoring after the rupture?
    Mr. Pruessing. Right after----
    Ms. Brown. You know when they started? Because these 
illnesses could be identified later, as opposed to sooner.
    Mr. Pruessing. Actually, right after the event, we had 
industrial hygiene people begin doing air monitoring within a 
couple hours of the time we had identified where the incident 
site occurred.
    Shortly after that, the EPA was on site, and also began 
doing their own monitoring. So we have monitoring data from 
very early after the incident. And again, all of that data at 
this point indicates that we're--have not created a public 
health issue.
    Ms. Brown. The Democratic staff has requested a lot of 
information, information on several different things, 
including, but not--request copies of all forms, including any 
forms dealing with medical claims or reimbursement of expenses, 
and other things. Have you--do you have that information, or 
are we going to be able to get that information, so we can 
monitor this situation, also?
    Mr. Pruessing. I have not personally reviewed the claims, 
but I can share with you the claims process that we have put in 
place. We now have over 40 claims specialists on site to try to 
work with the community. We try to respond to every claim 
within 24 hours. We then set up a meeting with the individual. 
Often times that includes a site visit, so we can see what the 
actual issues are.
    As I mentioned earlier, we are not asking anyone who files 
a claim to sign anything. If they file a claim, that does not 
mean that their claim is completed. All we are trying to do is 
help individuals respond to the actual incident and any impacts 
they may be feeling at this point. We will continue to be 
there, and respond as necessary until the job is done.
    Ms. Brown. I think it is--copy of the forms. But I do know 
that we have several requests in to your office, and we have 
not received any response as of yet.
    Mr. Pruessing. I will have to get back to you on that item, 
because I am not familiar with it.
    Ms. Brown. I know you heard Ms. Quarterman's testimony. And 
the situation had been monitored. What could we do to prevent 
this from happening again? It was a lot of ill ease as to 
whether or not it was adequate protection. So, as we move 
forward----
    Mr. Pruessing. Well, as Ms. Quarterman relayed to the 
subcommittee, you know, we had done an inline inspection of 
this line in 2009, and did not find integrity issues with it. 
We had come back and done the depth of cover survey in the 
end--at the end of 2010 and, again, felt that we had adequate 
depth of cover, based on previous experience.
    At this point in time, we do not know what occurred with 
this line. That is troubling to all of us. And we realize that 
we may have to wait for the water to recede before we can fully 
understand what occurred here.
    You know, there is certainly speculation that may be 
related to the river flooding. But at this point in time, I do 
not know what happened to this line. What does concern me, 
though, is that we used a very good engineering analysis and 
credible assessment, as we had done in the past, to look at 
this line from a risk standpoint. We had actually taken a one-
day shut-down of this line in late May, as we worked with the 
city of Laurel, to show them the data we had.
    I know that a lot of their issues were associated with the 
erosion of the south bank, as Ms. Quarterman has already 
shared. But we shared that data with them, as well as with 
PHMSA. Everything that we looked at at this point indicated, 
from a risk assessment standpoint, that we had a safe line.
    Again, we do not know what happened with this line, but we, 
just as everyone, are very anxious to be able to complete that 
investigation so that we can learn from it, and apply those 
learnings to the other parts of our business.
    Ms. Brown. We will have another round, I guess?
    Mr. Shuster. Sure.
    Ms. Brown. OK, thank you.
    Mr. Shuster. I think we will. Dr. Inkley, it is--again, 
appreciate you being here, in place of the witness that my 
colleagues requested.
    It is concerning to me, though, you are coming before the 
committee coming from a well-known organization, questioning--
and we certainly want to, as Mr. Rehberg pointed out, to 
continue to monitor the situation--but you are questioning the 
safety, the quality of the air, when we have got three 
organizations--the EPA, the NIH, and the CDC--that have said 
they evacuated people but they tested the quality of the air 
and let them come back in.
    And you are here today, it seems to me, saying--you are 
questioning whether it is safe out there, when we have got, 
like I said, the CDC and the NIH, two very, very highly 
respected health organizations saying it is fine to go back in. 
Are you still questioning it, even based on what the CDC and 
the NIH has said?
    Mr. Inkley. Yes, I am. I am questioning how it is being 
presented to the public.
    We still know that there is a lot of oil out there. In 
fact, when their cleanup is completed, and they leave the 
scene, they will have recovered only some 5 or 10 percent of 
the oil.
    Mr. Shuster. Right.
    Mr. Inkley. The other 90 percent will still be out there, 
or have degraded.
    Mr. Shuster. Right.
    Mr. Inkley. The public needs to understand that they can 
still be exposed. Fortunately, there has been--you know, there 
has been Ms. Bonogofsky, who ended up in the emergency room----
    Mr. Shuster. Right.
    Mr. Inkley [continuing]. And there has been some impact to 
wildlife. I am most concerned about the aquatic organisms.
    Mr. Shuster. Right.
    Mr. Inkley. But----
    Mr. Shuster. And your----
    Mr. Inkley [continuing]. You still have to be concerned.
    Mr. Shuster. You----
    Mr. Inkley. You know, when a grizzly bear is in an area, 
that doesn't mean there is no risk. There is a risk. The risk 
doesn't occur only when the grizzly bear attacks.
    Mr. Shuster. Sir, I understand that. But when a very 
respected organization says, ``We don't believe the risk is 
raised to a level that people shouldn't be there,'' as stated 
by the CDC and the NIH, I have real questions as to whether--
again, is your analysis coming--you have been on the ground out 
there, and looked around.
    Mr. Inkley. We do have people on the ground. You know, I do 
question the appropriateness of not having independent 
assessments. It wasn't until there was an independent 
assessment of the oil spill size in the BP spill in the Gulf of 
Mexico that the Government----
    Mr. Shuster. Right.
    Mr. Inkley [continuing]. And industry finally backed away 
from a terrible underestimate of one-tenth the actual size, of 
just 5,000 barrels per day in that spill.
    Mr. Shuster. Right, right.
    Mr. Inkley. Government said that.
    Mr. Shuster. Well, this is----
    Mr. Inkley. You are expecting me to believe that. It was 
wrong.
    Mr. Shuster. This is much smaller, and the CDC and the NIH 
are, again, very highly respected organizations.
    So, that being said, the next question to you is, is there 
another way that we can transport hazardous materials that is 
safer, in your view?
    Mr. Inkley. I think that we need to have improved pipeline 
standards. As I indicated in my testimony, as Mr. Pruessing 
indicated, they do not know why it failed. It had passed 
Federal inspection earlier. Obviously, the standards are 
inadequate to prevent it from happening.
    Mr. Shuster. But you dispute the past 20 years they have 
improved, over the past 20 years we have 30 percent less of the 
number of barrels of oil spilled, and the incidents have gone 
down significantly. Do you dispute that?
    Mr. Inkley. Well, I am greatly appreciative of the fact 
that the number of oil spills seems to have declined since the 
passage of that act. But we still have a long way to go. This 
map shows the incidences that have occurred across the United 
States in the last 10 years.
    Mr. Shuster. Sure, I understand.
    Mr. Inkley. It is very significant, still.
    Mr. Shuster. But it has decreased, and we are getting 
better. But my question is, when someone comes before this 
committee and questions pipelines, in light of all the facts--
it is getting better--it seems to me that the only way to get 
to zero incidents is just to stop doing it. Are you advocating 
that we shouldn't be--
    Mr. Inkley. No, no. We are advocating to protect public 
health and safety----
    Mr. Shuster. Well, and that is what we are doing here also. 
But whenever you do anything--for instance, you drive a car--
there is a risk involved. And we try to mitigate and reduce 
that, and I think we have done a good job of going in that 
direction.
    Do you oppose the Keystone pipeline?
    Mr. Inkley. The National Wildlife Federation believes that 
the Keystone pipeline should not be built, especially in light 
of the fact that we have these current safety standards that 
have been----
    Mr. Shuster. Right, and so----
    Mr. Inkley [continuing]. Devastatingly inadequate.
    Mr. Shuster [continuing]. You would be advocating for 
shipping hazardous materials by train or truck? Is that what 
you would be advocating for, instead of pipeline?
    Mr. Inkley. We are looking for improved pipeline safety 
standards.
    Mr. Shuster. And, in the meantime, let it be on trucks and 
let it be on trains, is that----
    Mr. Inkley. No, that is not what we are saying at all. We 
are saying that we need to improve the safety standards.
    Mr. Shuster. So that you would say that pipeline is 
probably the most--it is the safest way to move hazardous 
materials?
    Mr. Inkley. Actually, I am not a biochemical engineer, so I 
couldn't answer that question.
    Mr. Shuster. Right, right. Well, thank you very much. Mr. 
Pruessing, can you tell us why it took 2 hours for ExxonMobil 
to report to the National Response Center about the incident 
that occurred?
    Mr. Pruessing. Thank you for asking me that question, 
because there seems to be some misinformation about the actual 
timeline. So, let me go through the process that occurred----
    Mr. Shuster. Sure.
    Mr. Pruessing. And some of this you heard from Ms. 
Quarterman. But again, I want to make sure that everybody 
understands.
    At about 10:40 p.m. Mountain Time on July--the evening of 
July 1st, we got a pressure indication in our control room, 
where we monitor all of our pipelines on a 24/7 basis, that 
something unusual was going on in the pipeline, there was a 
pressure reduction. At that time we did not know if it was a 
pump shutting down, or an instrument that malfunctioned, or 
some other event.
    The team in the control room pulled in additional 
resources, tried to analyze the situation, and determined they 
could not, at that point, know exactly what was going on. So, 
they made the decision to shut down the pumps on the line, to 
stop the line from pumping. That was done within 7 minutes. So, 
at 10:47 p.m. Mountain Time, the pumps were shut down.
    They then began a complex series of steps to actually start 
closing valves that are along the pipeline to isolate various 
segments of the pipeline.
    There was a question earlier about why were some valves 
opened and then later closed and then later reopened. That was 
on the downhill section of the line, downstream of this river, 
and flowing into one of the refineries that we provide crude 
to. After that valve was closed, it was assessed that that was 
a safe section of line, there was not likely any issue there, 
the pressure reduction had been seen while upstream, and they 
could reopen that valve to allow the oil to drain away, down 
into the refinery.
    So, that was done from a safety perspective, to try to get 
the material into a safe spot which, in this particular case, 
was the refinery we were delivering oil to. We later came back 
and closed that valve, because we wanted to isolate all of the 
line at that point.
    The valve that we closed next to the Yellowstone River was 
done at 11:36. So our period--it took a period of 49 minutes 
before that actual valve was closed, from the time we started 
closing those valves.
    At that point in time, we did not yet know exactly where 
the incident occurred. All we know was that something unusual 
was going on in the lines, and we were shutting it down and 
isolating it.
    At 11:45 p.m. our control center in Houston received a call 
from the local fire department in Laurel City, indicating they 
had an odor of petroleum. That was really the first indication 
that we had of where the actual site may have been. At 12:19 we 
called the National Response Center. So, from the time we knew 
we had an actual spill until the time we called the National 
Response Center was certainly less than an hour.
    Mr. Shuster. Thank you very much for that. Now I will go to 
Mrs. Napolitano for 5 minutes for questions.
    Mrs. Napolitano. Thank you, Mr. Chair. One of the things 
that comes to mind, Mr. Pruessing, is the emergency response 
and corrosion control procedures. Your supervisor's knowledge 
of these procedures, I understand it is self-certification of 
the employees.
    How does that happen? Does this--how do you address it? Are 
they certified? If they are self-certified, how do we know that 
they are properly trained in these procedures?
    Mr. Pruessing. We have a very large and integrated plan to 
maintain the integrity of all of our pipelines across the 
country. And that involves----
    Mrs. Napolitano. I am sorry, but I have to run.
    Mr. Pruessing. Yes.
    Mrs. Napolitano. I am talking about specifically here.
    Mr. Pruessing. Yes.
    Mrs. Napolitano. In this particular area. Do you have a 
record of the self-certified employees, whether you trained 
them, they were trained by video, or were they trained by 
booklet? How were they trained, if they are self-certified?
    Mr. Pruessing. All of the skills that we have with regard 
to integrity management are part of the daily activities for 
many of these operators on the line. As was mentioned earlier, 
not only do we do the monitoring of this pipeline in a control 
room with electronic equipment and pressure and flow rates, but 
we also actually have employees in the field that visit the 
pipelines on a regular basis. We measure the corrosion 
protection. All of those are pieces of data that must be 
reported to PHMSA.
    Mrs. Napolitano. I know, but the----
    Mr. Pruessing. And----
    Mrs. Napolitano. The training to be able to recognize 
these----
    Mr. Pruessing. Yes.
    Mrs. Napolitano [continuing]. Instances is what I am 
concerned about.
    Mr. Pruessing. And the operators on a pipeline must be OQ-
qualified, according to the regulations in PHMSA.
    Mrs. Napolitano. Who records that qualification?
    Mr. Pruessing. We do the training. We actually have the 
tests on file. We record all of that, and then PHMSA will come 
in on audits and actually look at all of those training 
records, to make sure that they have been done properly.
    Mrs. Napolitano. Does PHMSA conduct any follow-up on this 
training, to ensure that the certification is proper?
    Mr. Pruessing. PHMSA has the right to come in and audit us 
in any aspect of our business.
    Mrs. Napolitano. OK, but they don't. In other words, this 
is self-certification.
    Mr. Pruessing. We actually do the work. But as--again, as 
Ms. Quarterman shared earlier, we have the responsibility to 
meet the requirements. They come in and audit all of those 
various requirements, to make sure we are meeting them.
    Mrs. Napolitano. Thank you. One of the statements I believe 
you might have made--and correct me if I am wrong--that you 
were going to replace a pipeline to 30-feet depth.
    Mr. Pruessing. That is correct, ma'am.
    Mrs. Napolitano. Then you recognize that the previously 
placed 5 feet of cover is inadequate. Why do you now believe 
the 30 feet is adequate, and what are you basing it on?
    Mr. Pruessing. Well, once again, we do not know the cause 
of this incident at this time. It may be related to the river 
conditions, but it may not be. So we will not know the answer 
to that until the investigation is complete.
    Mrs. Napolitano. But you will do it at a 30-foot depth?
    Mr. Pruessing. PHMSA provided a corrective order to us, 
asking us to use this technology when we do replace the line. I 
have not actually seen the final drawings on that, but I have 
talked with the engineers that are working on that. And they 
have indicated to me that we are looking at drilling at about 
30 feet, and it will not be in the rubble or the sediment of 
the riverbed, it actually will be in rock.
    Mrs. Napolitano. Thank you. In 1997, USGS recorded a flow 
of 82,000 cubic feet per second at their gauge in Billings. Did 
ExxonMobil go out and measure the impact then, the effect it 
had on your pipeline? And, if so, what was found? And do you 
have to perform--did you, at that time, have to perform any 
remedial action?
    Mr. Pruessing. We have not, in the past, had any issues 
with our pipelines during periods of flood. Again, as I 
mentioned earlier, we had gone back at this particular time, 
just months ago, and done further risk assessment work to 
confirm that we still had a safe pipeline. We had nothing that 
would indicate that the line was not safe.
    Mrs. Napolitano. Well, and my information tells me that 
USGS indicates that anything over 50,000 CFS does move a lot of 
the bedrock, a lot of the riverbed. Is this a problem you have 
been noticing?
    And when your inspectors look at this, do they gauge the 
changes there are in actual movement? Because there have been--
in 1996, in 1997, and before that--have been in 1991, and I am 
looking at historical records from USGS. And if this showing an 
erosion, what steps are you taking in areas--and if you are 
going to bury this one 30 under, what about other areas they 
may be less than?
    Mr. Pruessing. We are constantly looking to try to improve 
our knowledge and improve our operations from a safety and 
integrity standpoint. That is part of the way we try to address 
our business each and every day. We do risk assessments on all 
parts of our business, to make sure that we are comfortable 
continuing the operations, no matter what the conditions.
    I will share with you that when the Mississippi River was 
flooding earlier this year, they were going to open the 
Morganza Spillway for the first time since 1973. We had several 
lines that crossed the Atchafalaya River, downstream of the 
Morganza Spillway. We did a risk assessment on that work, on 
those lines. We determined that, based on historical issues, 
that we needed to shut those lines down.
    So, when they opened that Morganza Spillway, our lines were 
shut down, cleared of oil, and filled with water. We did that 
as part of our normal risk assessment process to say, ``How do 
we get ourselves comfortable that we are operating in an 
appropriate way?''
    Mrs. Napolitano. Yes----
    Mr. Pruessing. We did that----
    Mrs. Napolitano [continuing]. I am focusing on Billings, 
sir. That is my focus.
    Mr. Pruessing. We did that same type of activity here, at 
the Billings crossing. We identified the potential risks, we 
looked at all the data, the integrity data, the depth of cover 
data, the recent PHMSA inspections. We felt like we had a safe 
system.
    Again, I do not yet know what the cause of this incident 
was.
    Mr. Shuster. The gentlelady's time has expired.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Shuster. I would like to recognize Mr. Hanna for 5 
minutes of questioning.
    Mr. Hanna. Thank you, Chairman. Couple things. The age of 
the pipeline, do you have a rough idea?
    Mr. Pruessing. The original line was--first was laid in 
1949. But this particular crossing was relaid in 1991. It used 
to run across the--underneath the bridge, going across the 
river. And the State highway department had asked us to take it 
off the bridge and relocate it in the river. So we relaid this 
line in 1991.
    Mr. Hanna. So it is 20 years old.
    Mr. Pruessing. Yes.
    Mr. Hanna. Do you have--you have sacrificial anodes on 
this?
    Mr. Pruessing. Yes.
    Mr. Hanna. Cathodic protection----
    Mr. Pruessing. Yes, we use cathodic protection----
    Mr. Hanna. You stated that you have--you checked, and 
that--they were intact, they were adequate?
    Mr. Pruessing. Yes. One of the regular things that we do, 
from a pipeline maintenance standpoint, is check the rectifier 
readings, to make sure that we have current going appropriately 
to protect the lines, and we have no indication that that was a 
problem.
    Mr. Hanna. OK. And the valves that you closed, they are all 
hand-closed valves?
    Mr. Pruessing. Some of those are hand-closed valves, some 
of those are motor-operated valves that actually were operated 
from the control center in Houston. And, in addition, at this 
particular river crossing, on the downstream side there was 
actually a check valve to prevent back flow.
    Mr. Hanna. And this all happened--a lot of this happened in 
the middle of the night?
    Mr. Pruessing. Yes, it did.
    Mr. Hanna. So--all right. Thank you very much.
    Mr. Shuster. Thank you, Mr. Hanna. Ms. Richardson, you are 
recognized for 5 minutes for questions.
    Ms. Richardson. Yes, thank you, Mr. Chairman. First of all, 
I want to say, Mr. Pruessing, thank you for being here and 
addressing this in the serious manner that it deserves. The 
fact that you have come and participated with this committee, I 
think, is appreciated by all.
    Sir, just wanted to recap a couple things that I had asked 
Ms. Quarterman. One, would you be willing to submit your--
ExxonMobil's--integrity management plan to the committee?
    Mr. Pruessing. Our integrity management plan, we would be 
glad to review with the committee. I did not realize that that 
request had been made. But certainly the plan that we have in 
place that we use to monitor our pipelines is something that we 
would be glad to share.
    Ms. Richardson. OK. And then I think, building upon the 
question of Ms. Brown, her question was would you provide the 
committee information regarding the claims. And as I heard your 
response, you said the work that you were doing with the 
claims, but you didn't say you would supply the information to 
the committee. So, would you be willing to include that, as 
well?
    Mr. Pruessing. I will need to get back to you on that, 
because I certainly want to make sure that we protect the 
privacy of the individuals that are making the claims. So that 
would be my concern. I would have to get back to you on that 
particular question.
    Ms. Richardson. Well, I think it would be obvious to assume 
that the committee wouldn't expect necessarily to have the 
names of the individuals, but the fact if X amount of claims 
have been submitted--I think you said 40 or so--you have talked 
to approximately 120 people, what those claims have been 
associated with, you know, whether it is environment or 
property damage and so on, and where along the process you are 
in responding.
    Mr. Pruessing. We would be happy to provide that kind of 
information.
    Ms. Richardson. Thank you, sir, because I think, when we 
look at previous situations that have occurred, those have been 
some of the big issues that have gotten the attention of this 
committee and others, as well.
    Mr. Pruessing. Well, it is certainly our intent to respond 
to everyone's individual claims. And again, I want to reinforce 
that we will honor all legitimate claims.
    Ms. Richardson. OK. And I believe that is my last question. 
Thank you. I yield back, Mr. Chairman.
    Mr. Shuster. Thank you very much. And we are going to go to 
a second round for the ranking member.
    I just want to--EPA, we are trying to get EPA to be 
rational in what they do. They are doing a great job here. I 
see all the press releases coming out, EPA saying things are 
moving in a positive direction, which I appreciate. But just to 
respond to the ranking member's criticism of our side trying to 
cut their funding, we are trying to cut their funding for new 
stuff.
    And in my State of Pennsylvania, they are wreaking havoc, 
telling my Department of Environmental Protection, the 
Pennsylvania Department of Environmental Protection, how to do 
their job, which they have been doing effectively and 
efficiently for three or four decades. So we are trying to get 
them to back away from overstepping their bounds when it comes 
to the State of Pennsylvania, and a one-size-fits-all 
regulation. So that is my--that is a big problem I have with 
EPA.
    So, with that----
    Ms. Richardson. Mr. Chairman?
    Mr. Shuster. Yes, ma'am.
    Ms. Richardson. Would you yield for just a moment?
    Mr. Shuster. Yes.
    Ms. Richardson. I yielded back about 2 minutes----
    Mr. Shuster. Yes.
    Ms. Richardson [continuing]. And I forgot to say one thing.
    Mr. Shuster. Sure.
    Ms. Richardson. I just wanted to also note that the staff 
immediately--when this incident occurred, I did receive an 
email and received numerous updates. And although this is not a 
good situation and we are looking to address it, I at least 
want to commend the information that was provided in a timely 
fashion.
    Mr. Pruessing. Thank you very much.
    Ms. Richardson. Thank you.
    Mr. Shuster. Thank you. And I recognize the ranking member 
for 5 minutes for another round of questions.
    Ms. Brown. Thank you. But I need to say something for EPA, 
and I don't want it taken from my time. But let me just say 
that I didn't call any names, but someone once told me the 
squeaky wheels, or the squeaky pigs, or whatever, make a lot of 
noise. I didn't say who was trying to cut EPA funding. I didn't 
call any names.
    Mr. Shuster. I wouldn't call anybody names, but I have 
heard you squeak before.
    Ms. Brown. Doctor--yes, sir, would you please tell us a 
little about your background, and who you are, just quick? 
Because I think people need to understand that you come here 
with some knowledge of the situation, and you are not just 
talking to be talking.
    Monitoring depends on when you take the monitor. And if 
people are sick, we need to analyze what caused it, and it is 
the ongoing process.
    Mr. Inkley. OK. Well, thank you very much----
    Ms. Brown. You are my guest on this committee.
    Mr. Inkley. Thank you very much. Thank you for the 
invitation to be here today.
    I usually tell people it took me 10 years to get through 
college, but that is because it included a bachelor of science 
degree, a master of science degree, and a Ph.D., as well. I 
would add that the Ph.D.----
    Ms. Brown. But is that--what is it in, your Ph.D.?
    Mr. Inkley. My Ph.D. is in wildlife ecology from the 
University of Wyoming. So I am quite familiar with western 
ecosystems, and even directed a research project that covered 
the Billings area, with respect to raptors, or birds of prey.
    So, I have--since then, I have worked with the U.S. Fish 
and Wildlife Service, I have worked for the Florida Department 
of Game and Freshwater Fish Commission, and now I have served 
the National Wildlife Federation as their senior scientist for 
a number of years.
    Unfortunately, I was deeply involved over the past year in 
response to the oil spill in the Gulf of Mexico, and have spent 
more time than I wish dealing with that situation.
    Ms. Brown. Thank you. And your recommendations, you are 
going to give us in writing what you would recommend how we 
could improve the system. We are not indicating that we don't 
want to use the natural gas to move the oil, but we want to 
make sure that we are protecting the environment for our 
children and children's children.
    Mr. Inkley. That is exactly what we are here for, is to try 
to protect wildlife for our children's future. I know that 
everyone here wants to do that. But it is very apparent to me, 
to the National Wildlife Federation, that the current standards 
are inadequate for doing that in an appropriate manner. And all 
we are seeking to do is to strengthen those.
    Ms. Brown. Yes, sir. Let me just move on. I am familiar 
with what happened in Alaska with ExxonMobil. And the fact is, 
I am probably the only person with institutional memory knowing 
that it is not completely cleaned up, as we speak, even though 
the people from Alaska want to act like it is cleaned up.
    You indicated that you all have conducted surveys. Did you 
all go down in the river to conduct those surveys, or--I am not 
a scientist--so how did you all do it? I want to know not so 
much as blaming this moment, but as we move forward, how can we 
make sure it doesn't happen again? We are looking at a bill. I 
want to make sure we include what we need to in the bill to 
make sure that everybody stay and do what they supposed to do.
    Mr. Pruessing. We certainly agree that we want to make sure 
any learnings from this incident get built in to the future 
procedures and the way we operate lines.
    Again, we do not yet know what caused this incident. And so 
we are very anxious to work with PHMSA and do our own 
investigation as well, so that we can learn that, moving 
forward.
    Ms. Brown. Well, how did you conduct the indepth survey, 
specifically?
    Mr. Pruessing. The steps that we took over the last couple 
of years, I think again, are important to understand.
    First of all, we ran a smart pig in the line, which 
actually measures thickness of the line and collects data about 
the integrity of the line. We did that in 2009. In December 
2010 we did soundings, electronic soundings, over the riverbed 
to confirm the depth of cover. And that was 5 to 8 feet, as has 
been mentioned earlier.
    Then, in addition, we shut the line down in late May to do 
an additional risk assessment. The city of Laurel was very 
concerned about bank erosion. And that is also part of the data 
that we provided, as far as the depth of cover on the bank, 
which, as mentioned earlier, was between 11 and 13 feet.
    In addition to those steps, we do aerial overflights of our 
pipelines. It is required to do that 26 times a year, but we do 
it every week. We do it twice as often as the regulation 
requires, just so that we are getting eyes on all of our 
pipelines, to make sure that there is not something going on, 
or right of way encroachment that we are not aware of.
    In addition, we have corrosion monitoring that goes on. It 
was mentioned earlier about cathodic protection. That is the 
method to basically cause another piece of metal that is buried 
in the ground to corrode, and keep the pipeline safe. So we 
have cathodic protection on all of our lines, we go out and we 
measure to make sure that that current is moving appropriately, 
so that there is no interruption in that.
    And, in addition to all of those things, then, we have 
PHMSA, who comes in and audits all of these activities on a 
regular basis to make sure that we are meeting all those 
requirements.
    So, again, our integrity program is very broad. It covers 
many different aspects, many different people. But again, as 
we--even as we entered this period of time of high river flow, 
we had assessed, from a risk standpoint, that we still had a 
safe line. So, obviously, there is something that occurred that 
we are not yet aware of, that we are very anxious to find out, 
so that we can learn from that.
    Ms. Brown. We had over five different hearings and 
discussions. And, you know, people want to talk about what 
happened. In the last 18 months we separated the agency from 
the industry, and I am very pleased with that, so that 
everybody could play their proper role.
    And so, we still want to know--one of the problems was we 
had indicated there are some areas that we need to rev up, put 
additional security, and then there are some areas that, you 
know, the--we need to put people--not just put people to work, 
but to reinforce the pipelines. What are some of the 
recommendations the industry--you--are making to us, that we 
can include in the bill to make sure that we keep the public 
safe from these kinds of accidents?
    Mr. Pruessing. Thank you for that question. Probably the 
single biggest item that the industry has been pushing on, and 
is currently included in the proposed bill, is that we remove 
the exemptions for one call for all parties.
    Right now, if you are an individual that wants to do a dig 
near a pipeline right of way, you have to call the State one 
call and let people know you want to dig. It is the call-
before-you-dig----
    Ms. Brown. Yes, I understand that. That is a very 
successful program.
    Mr. Pruessing. Yes. But, up to this point, municipalities, 
State departments of transportation, have not been required to 
make the one call. And so, protection of those pipelines, and 
making sure that everyone has to make that call before they 
begin digging, we believe, will be a major step forward in 
improving pipeline safety. And to the credit of Congress, that 
is included in the proposed bill right now.
    Ms. Brown. OK.
    Mr. Shuster. I didn't take away the gentlelady's time for 
responding to me on EPA, and I gave her 2 minutes. If you have 
one final question to wrap up, I would be happy to take that, 
because we want to move along, and we want to get the----
    Ms. Brown. You can go and come back to me.
    Mr. Shuster. Well, we want to finish up. So go ahead. Final 
question.
    Ms. Brown. No, I understand what--that recommendation. I am 
asking you specifically what can you all do, the industry, to--
we have--you are making billions of dollars. I mean it has 
never been so well for your industry. How can we go in and make 
sure that we are training, monitoring--you all are. What can 
you do to up the safety? That is why I am asking.
    Mr. Pruessing. Well, I certainly believe that one of the 
things that we can do, as an industry, is make sure that we all 
learn from the instances that do occur, that we share those 
learnings across the industry, so that we do not repeat 
mistakes.
    Certainly the Association of Oil Pipelines, which we are a 
member, has been trying to step up that, make sure that we do a 
better job of sharing knowledge, as it is gained, so that 
incidents or issues are not repeated. And that is something the 
industry is working on very hard right now.
    Mr. Shuster. Thank you very much. And a final question? Mr. 
Rehberg, I think, has a follow-up.
    Mr. Rehberg. Yes, thank you. Thank you, Mr. Chairman. And I 
was remiss in not thanking your staff. They have been very easy 
to work with. I really appreciate their desire to have this 
hearing in a timely fashion. And it meant a lot to me that you 
would be as timely, as well.
    So, let me thank you for that; Dr. Inkley, for your kind 
work and good work. I am, in fact, affiliated with the National 
Wildlife Federation, as a result of my relationship with the 
Billings Rod and Gun Club, and--which are my neighbor, 
actually, on my fence line.
    Mr. Inkley. Thank you for requesting the hearing.
    Mr. Rehberg. Yes, I know your good work, and I appreciate 
it as much.
    Mr. Pruessing, first of all, thank you for being on the 
ground in Billings, constantly. I am actually, frankly, 
surprised and pleased you are out here, because you at once 
promised all of us you would never leave Billings until it was 
done. Clearly, your wife or someone has suggested you need to 
get away from Billings a little bit.
    But you have been on the ground. You know this issue inside 
and out. When the Governor and I met with you--you made a 
statement that you haven't repeated--and I just want to, for 
clarification purposes--you know, one of the criticisms was, 
well, why didn't you just shut the pipeline off, and I thought 
your response at that time was particularly apropos for this 
hearing.
    Maybe you could restate why you don't just shut things 
down, why you have a protocol for shutting this down and then 
that down, and then there is a time lag, and such? Because I 
think it really is an important point for the congressional 
record.
    Mr. Pruessing. Thank you very much for that question. When 
you try to shut down a pipeline, you have a large amount of 
mass flowing at very high velocities in a pipe. If you just 
slam the valve shut, all that energy, the kinetic energy that 
is moving with that mass, has to turn into some other form of 
energy, and that becomes pressure.
    So, if you have a very large line moving large amounts of 
material, just slamming a valve shut means you could actually 
over-pressure a line. So we have a process to avoid that. The 
first thing we do is shut down pumps to get most of the 
pressure off the line and stop it from flowing. But then we 
have a very detailed plan to shut down individual valves, to 
isolate it, so that we don't create a new problem.
    And so, again, yes, it takes some time to fully isolate a 
line. But it is done with safety in mind, to make sure that we 
don't create other issues.
    Mr. Rehberg. The other question that we talked about at one 
of our hearings was about the 30-foot depth, and the fact that 
it would, in fact, change where the valves are located. And 
while Ms. Quarterman kind of moved beyond that, or said it 
shouldn't, I don't think that is correct, is it?
    Mr. Pruessing. No. If we go to a depth of 30 feet, we will 
have to dig from farther back to make sure that we don't have 
too steep a slope. So the valves actually will be moved back, 
farther away from the river bank.
    Mr. Rehberg. And the third question, then, that was brought 
up at one of those meetings was--one of the requirements or 
suggestions was a different kind of valve. And there was a 
suggestion that perhaps that new valve, or a different kind of 
valve, might actually create more of a problem than it solves. 
Is that true, or was that just enough of--a throw-away line by 
somebody?
    Mr. Pruessing. There has been discussion about automatic 
shut-down systems, or automatic shut-down valves. We still have 
control of those valves, to make sure we don't create other 
issues. So, while many of them are motor-operated, and can be 
remotely moved by the control center, we do not have a single 
button you push to shut down a line, because of that concern 
about over-pressure.
    Mr. Rehberg. OK. Thank you very much.
    Mr. Shuster. Thank you, Mr. Rehberg, and thank you for 
being here today. You bring depth of knowledge to this 
particular incident that, of course, none of us have.
    Mr. Rehberg. And you don't want to.
    Mr. Shuster. I am sure. And I hope you don't have to do it 
again.
    But thank you for being here today. And thank you, too, to 
our two witnesses, Dr. Inkley and Mr. Pruessing, for being here 
today. We appreciate you taking the time. And, again, we are 
going to be watching closely what is happening up there.
    I would like to submit for the record the daily EPA 
reports. They are the incident command there. And it appears to 
me that things are getting done, in light of the fact we have a 
spill. But EPA is reporting there on a daily basis what is 
happening, so I want to have that for the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 67383.012
    
    [GRAPHIC] [TIFF OMITTED] 67383.013
    
    [GRAPHIC] [TIFF OMITTED] 67383.014
    
    [GRAPHIC] [TIFF OMITTED] 67383.015
    
    [GRAPHIC] [TIFF OMITTED] 67383.016
    
    [GRAPHIC] [TIFF OMITTED] 67383.017
    
    [GRAPHIC] [TIFF OMITTED] 67383.018
    
    [GRAPHIC] [TIFF OMITTED] 67383.019
    
    [GRAPHIC] [TIFF OMITTED] 67383.020
    
    [GRAPHIC] [TIFF OMITTED] 67383.021
    
    [GRAPHIC] [TIFF OMITTED] 67383.022
    
    [GRAPHIC] [TIFF OMITTED] 67383.023
    
    [GRAPHIC] [TIFF OMITTED] 67383.024
    
    [GRAPHIC] [TIFF OMITTED] 67383.025
    
    [GRAPHIC] [TIFF OMITTED] 67383.026
    
    [GRAPHIC] [TIFF OMITTED] 67383.027
    
    [GRAPHIC] [TIFF OMITTED] 67383.028
    
    [GRAPHIC] [TIFF OMITTED] 67383.029
    
    [GRAPHIC] [TIFF OMITTED] 67383.030
    
    [GRAPHIC] [TIFF OMITTED] 67383.031
    
    [GRAPHIC] [TIFF OMITTED] 67383.032
    
    Mr. Shuster. So again, thank you all very much, and this 
hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

</pre></body></html>
